 OFFICE OF JUSTICE PROGRAMS

ANNUAL FINANCIAL STATEMENTS

      FISCAL YEAR 2011

        U.S. Department of Justice
	
      Office of the Inspector General
	
               Audit Division
	

           Audit Report 12-18
	
             February 2012
	
              OFFICE OF JUSTICE PROGRAMS

             ANNUAL FINANCIAL STATEMENTS

                   FISCAL YEAR 2011


               OFFICE OF THE INSPECTOR GENERAL

                  COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
Office of Justice Programs (OJP) for the fiscal years (FY) ended
September 30, 2011, and September 30, 2010. Under the direction of the
Office of the Inspector General (OIG), KPMG LLP performed OJP’s audit in
accordance with U.S. generally accepted government auditing standards.
The audit resulted in an unqualified opinion on the FY 2011 financial
statements. An unqualified opinion means that the financial statements
present fairly, in all material respects, the financial position and the results
of the entity’s operations in conformity with U.S. generally accepted
accounting principles. For FY 2010, OJP also received an unqualified opinion
on its financial statements (OIG Report No. 11-17).

       KPMG LLP also issued reports on internal control over financial
reporting and on compliance and other matters. The auditors did not
identify any significant deficiencies in the FY 2011 Independent Auditors’
Report on Internal Control over Financial Reporting. Additionally, no
instances of non-compliance with applicable laws and regulations, and the
Federal Financial Management Improvement Act of 1996 were identified
during the audit in the FY 2011 Independent Auditors’ Report on Compliance
and Other Matters.

       The OIG reviewed KPMG LLP’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an audit in accordance with U.S. generally accepted
government auditing standards, was not intended to enable us to express,
and we do not express, an opinion on OJP’s financial statements, conclusions
about the effectiveness of internal control, conclusions on whether OJP’s
financial management systems substantially complied with the Federal
Financial Management Improvement Act of 1996, or conclusions on
compliance with laws and regulations. KPMG LLP is responsible for the
attached auditors’ reports dated November 3, 2011, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG did not comply, in all material respects, with U.S. generally accepted
government auditing standards.
                   OFFICE OF JUSTICE PROGRAMS

                  ANNUAL FINANCIAL STATEMENTS

                        FISCAL YEAR 2011


                           TABLE OF CONTENTS

                                                                               PAGE
	

MANAGEMENT’S DISCUSSION & ANALYSIS..............................................3
	

INDEPENDENT AUDITORS’ REPORTS
	

   REPORT ON FINANCIAL STATEMENTS ............................................... 27
	

   REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING ........... 29
	

   REPORT ON COMPLIANCE AND OTHER MATTERS................................ 31
	

PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES
	

   CONSOLIDATED BALANCE SHEETS ................................................... 34
	

   CONSOLIDATED STATEMENTS OF NET COST ..................................... 35
	

   CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ............ 36 


   COMBINED STATEMENTS OF BUDGETARY RESOURCES ....................... 38
	

   NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS .......................... 40
	

REQUIRED SUPPLEMENTARY INFORMATION
	

   COMBINING STATEMENTS OF BUDGETARY RESOURCES...................... 68
	

REQUIRED SUPPLEMENTARY STEWARDSHIP INFORMATION
	

   NON-FEDERAL PHYSICAL PROPERTY ................................................. 75
	
This page intentionally left blank.
	
Management’s Discussion and Analysis


              Unaudited





              -1-
This page intentionally left blank. 





                -2-
                Management’s Discussion and Analysis




                           U.S. DEPARTMENT OF JUSTICE

                          OFFICE OF JUSTICE PROGRAMS

                       MANAGEMENT’S DISCUSSION & ANALYSIS

                                   (UNAUDITED)


BACKGROUND
The Department of Justice (DOJ, or Department), Office of Justice Programs (OJP),
established by the Justice Assistance Act of 1984 and reauthorized in 2005, provides federal
leadership in developing the nation’s capacity to prevent and control crime, administer justice,
and assist crime victims. OJP strives to make the nation’s criminal and juvenile justice
systems more responsive to the needs of state, local, and tribal governments and their citizens.
OJP partners with federal, state, and local agencies, and national and faith/community-based
organizations to develop, operate, and evaluate a wide range of criminal and juvenile justice
programs. These partnerships also provide resources to more effectively fight crime and
improve the quality of life and sense of safety in communities across the nation.

OJP administers formula and discretionary grant programs, and provides training and technical
assistance on evidence-based practices through programs developed and funded by its bureaus
and program offices. Although OJP staff conduct some research and provide technical assistance,
the bulk of OJP’s resources for achieving its goals are dedicated to federal financial assistance for
practitioners, state and local governments and agencies, scholars, and experts. OJP awards
formula grants to state agencies that administer drug control, criminal justice system
improvement, juvenile justice, and victim compensation and assistance programs. State agencies
also utilize OJP funds to award subgrants to units of state and local governments to accomplish
program goals. OJP awards discretionary grants to a variety of state, local, private, and non-profit
organizations through competitive solicitations and invited solicitations.

MISSION
OJP’s mission is to increase public safety and improve the fair administration of justice across
America through innovative leadership and programs. The alignment of OJP’s strategic goals
and objectives under the DOJ Strategic Plan is presented on the next page.




U.S. Department of Justice

                                               -3-
                   Management’s Discussion and Analysis




       Alignment of 2007-2012 OJP Strategic Goals and Objectives to DOJ Strategic Plan and Goals
 DOJ Goal 2: Prevent Crime,          DOJ Goal 3: Ensure the Fair and Efficient Administration of Justice
 Enforce Federal Laws, and
 Represent the Rights and
 Interests of the American
 People
 OJP Goal 1: Increase the            OJP Goal 2: Improve       OJP Goal 3:         OJP Goal 4: Increase the
 Nation’s capacity to prevent and    the fair administration   Reduce the          understanding of justice issues
 control crime                       of justice                impact of crime     and develop successful
                                                               on victims and      interventions
                                                               hold offenders
                                                               accountable


 OJP Objectives:                     OJP Objectives:           OJP Objectives:     OJP Objectives:
 1.1 Improve policing and            2.1 Improve the           3.1 Provide         4.1 Provide justice statistics
 prosecution effectiveness           adjudication of state,    compensation        and information to support
                                     local, and tribal laws    and services for    justice policy and decision-
                                                               victims and their   making
                                                               survivors


 1.2 Enhance the capabilities of     2.2 Improve               3.2 Increase        4.2 Conduct research that
 jurisdictions to share              corrections and reduce    participation of    supports and advances justice
 information                         recidivism                victims in the      policy, decision making, and
                                                               justice process     program evaluation

 1.3 Increase the availability and
 use of technological resources
 for combating crime



 1.4 Improve the effectiveness
 of juvenile justice systems


ORGANIZATION STRUCTURE
OJP’s organizational structure reflects a centralized, transparent, and client-based approach to
accomplishing its mission. The Office of the Assistant Attorney General (OAAG) is responsible
for overall management and oversight of OJP—setting policy, and ensuring that OJP’s policies and
programs reflect the priorities of the President, the Attorney General, and the Congress. OJP’s
organization chart, shown on the next page, has not changed since it was approved by Congress in
April 2007.



U.S. Department of Justice

                                                       -4-
             Management’s Discussion and Analysis




U.S. Department of Justice

                                       -5-
                 Management’s Discussion and Analysis




FINANCIAL STRUCTURE
In fiscal year (FY) 2011, OJP’s financial structure was comprised of the following appropriated
accounts:
   Salaries and Expenses: One-year salaries and expenses.
   Justice Assistance: No-year discretionary assistance.
   State and Local Law Enforcement Assistance: No-year discretionary assistance.
   Juvenile Justice Programs: No-year discretionary assistance.
   Public Safety Officers’ Benefits Program: No-year mandatory and discretionary assistance.
In addition, Congress provides an obligation limitation cap of $705 million for the Crime Victims
Fund (CVF) through Title V, Section 512 of the General Provisions in the FY 2011 Appropriations
Act.
Below is a pie chart depicting OJP’s FY 2011 funding by appropriation.

                                    Office of Justice Programs

                            FY 2011 Enacted Funding by Appropriation

                                       (dollars in thousands)
                                    Total Funding: $2,543,003
                                                                      Salaries and
                                                                   Expenses, $140,124,
                                                                          5%
           Crime Victims Fund,
              $705,000, 28%
                                                                          Justice Assistance,
                                                                            $234,530, 9%

                                                                         State and Local Law
                                                                             Enforcement
        Public Safety
                                                                              Assistance,
       Officers Benefits,
                                                                          $1,117,843, 44%
         $70,082, 3%

              Juvenile Justice
            Programs, $275,424,
                   11%




U.S. Department of Justice

                                             -6-
                Management’s Discussion and Analysis




Financial Responsibility
OJP is responsible for the fair presentation of its financial position as of September 30, 2011, and
its net cost, changes in net position, budgetary resources, Management’s Discussion and
Analysis (MD&A), Notes to the Financial Statements, Required Supplementary Information
(RSI), and Required Supplementary Stewardship Information (RSSI) for the year then ended, in
conformity with accounting principles generally accepted in the United States of America. OJP is
responsible for establishing and maintaining internal controls and for implementing and
maintaining financial management systems that substantially comply with federal financial
management systems requirements, applicable federal accounting standards, and the U.S.
Government Standard General Ledger at the transaction level.

OJP has several programs reported under the RSSI, of which the most materially significant
programs are the Violent Offender Incarceration and Truth-In-Sentencing (VOI/TIS) grant
program and the Correctional Systems and Correctional Alternatives for Tribal Lands
(CSCATL) grant program, which has been expanded in scope to include multi-purpose justice
centers as the result of the recently enacted Tribal Law and Order Act of 2010 (Public Law [P.L.]
111-211). Both programs provide grants for the purposes of building and expanding correctional
facilities and jails to increase secure confinement space for violent offenders and implementing
correctional alternatives to reduce reliance on incarceration. VOI/TIS funds are available to any
of the 50 United States, the District of Columbia, Puerto Rico, U.S. Virgin Islands, American
Samoa, Guam, the Northern Mariana Islands, and recognized Tribal governments; while
CSCATL funds are available to tribes within the 50 states. The facilities built or expanded with
these funds constitute non-federal physical property.
OJP is also responsible for the fair presentation of performance data consistent with the
Government Performance and Results Act Modernization Act of 2010 and the Government
Performance and Results Act of 1993 and reporting in the DOJ Performance and Accountability
Report (PAR). OJP maintains that the financial and performance data presented herein are valid
and acceptably reliable.

OJP is highly committed to continuous improvement through its federal financial assistance
monitoring, internal audits, and related policy updates and training. OJP also actively participates
in government-wide grant simplification efforts and will participate in the DOJ Unified Financial
Management System (UFMS), upon its implementation. In compliance with the Federal
Financial Assistance Management Improvement Act of 1999, OJP continues efforts to streamline
and standardize grant management policies, procedures, and technologies across the agency to
reduce costs, improve customer service, and increase efficiency. The mission of the UFMS
project is to implement a department-wide secure, integrated, and unified financial management
system, supported by standard processes, to comply with applicable statutes and regulations.




U.S. Department of Justice

                                               -7-
                 Management’s Discussion and Analysis




ANALYSIS OF FINANCIAL STATEMENTS
The OJP Office of the Chief Financial Officer is responsible for developing, analyzing, and ensuring
the accuracy of financial statements for OJP.

Financial Results, Position and Condition
These financial statements have been prepared to report the financial position and results of
operations for OJP, pursuant to the requirements under Title IV of the Government Management
Reform Act (GMRA) of 1994 (P.L. 103-356). These statements have been prepared from OJP
books and records, in conformity with the formats prescribed by the Office of Management and
Budget (OMB). The FY 2011 statement of changes in net position includes a cumulative result of
operations of approximately $7.2 billion and unexpended appropriations of approximately $4.6
billion. OJP has approximately $11.3 billion in fund balances with Treasury. Since OJP has
approximately $580 million in liabilities, OJP has sufficient resources to meet its requirements in
the foreseeable future. From FY 2010 to FY 2011, the significant decrease of $965 million in
budgetary financing sources is due primarily to the reduction in appropriations received of $609
million. There are no known trends or demands, commitments, events or uncertainties that will
impact or that are reasonably likely to increase or decrease the liquidity of OJP in any material
way.

Resources and Results
OJP’s FY 2011 and FY 2010 sources of budgetary resources and how resources were spent are
displayed in Tables 1 and 2, respectively.

                       Table 1. Source of Office of Justice Programs Resources
                                     (Dollars in Thousands)

                                                                                            Change
  Source                                                   FY 2011            FY 2010         %

  Earned Revenue                                          $     42,762    $       76,103    -43.8%
  Budgetary Financing Sources
     Appropriation Received                               $   1,893,160   $     2,501,851   -24.3%
     Appropriation Transferred-In/Out                     $     200,344   $       200,453    -0.1%
     Nonexchange Revenues                                 $   1,998,729   $     2,363,270   -15.4%
     Other Adjustments and Budgetary Financing Sources    $    (45,365)   $      (54,000)   -16.0%
  Other Financing Sources
     Transfers In/Out Without Reimbursement               $     10,600    $       24,608    -56.9%
     Imputed Financing from Cost Absorbed by Others       $      5,265    $        4,712     11.7%
  Total                                                   $   4,105,495   $     5,116,997   -19.8%




U.S. Department of Justice

                                                  -8-
                 Management’s Discussion and Analysis




                   Table 2. How Office of Justice Programs Resources were Spent
                                      (Dollars in Thousands)

 Strategic Goal (SG)                                     FY 2011         FY 2010         Change %
 SG 2: Prevent Crime, Enforce Federal Laws, and
 Represent the Rights and Interests of the American
 People
                                           Gross Cost    $   2,680,635   $   2,757,971
                                Less: Earned Revenue     $      32,322   $      49,851
                                             Net Cost    $   2,648,313   $   2,708,120        -2.2%
 SG 3: Ensure the Fair and Efficient Administration
 of Justice
                                           Gross Cost    $   1,054,276   $    988,230
                                Less: Earned Revenue     $      10,440   $     26,252
                                             Net Cost    $   1,043,836   $    961,978          8.5%

                                   Total Gross Cost      $   3,734,911   $   3,746,201
                        Less: Total Earned Revenue       $      42,762   $      76,103
                         Total Net Cost of Operations    $   3,692,149   $   3,670,098         0.6%

2011 Financial Highlights
OJP’s FY 2011 budgetary resources totaled $3.1 billion. Of this amount, OJP obligated
approximately $2.9 billion, resulting in an unobligated balance of $187 million. The net cost of
operations totaled approximately $3.7 billion for FY 2011.

In FY 2011, Other Liabilities decreased by $30.6 million, due to a decrease of $26 million in the
Office of Community Oriented Policing Services (COPS) advances.

OJP aligns its strategic plan, including its strategic goals, strategic objectives, programs, and
activities to DOJ Strategic Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the
Rights and Interests of the American People; and DOJ Strategic Goal 3: Ensure the Fair and
Efficient Administration of Justice. DOJ Strategic Goal 2 activities accounted for a net cost
decrease of 2.2 percent and DOJ Strategic Goal 3 activities had an increase of 8.5 percent effect to
net costs in FY 2011, compared to FY 2010 net costs.

The following section describes OJP’s spending and its relationship to the DOJ Strategic Plan.
The programs that fall under Strategic Goal 2 include, but are not limited to, the Weed and Seed
Program, the DNA Backlog Reduction Program, and the America’s Missing: Broadcast
Emergency Response (AMBER) Program. The programs that fall under Strategic Goal 3 include,
but are not limited to, the Residential Substance Abuse Treatment Program and the Drug Court
Program.




U.S. Department of Justice

                                                   -9-
                 Management’s Discussion and Analysis




           How the Office of Justice Programs Resources were Spent by DOJ Strategic Goal

                                              FY 2011

                                                      (Dollars in Thousands )
                                             Total Net Cost of Operations: $3,692,149


             Strategic Goal 2: Prevent
	
              Crime, Enforce Federal
	
             Laws, and Represent the
	
             Rights and Interests of the
	
                 American People
	
                 $2,648,313; 72%
	




                                                                                             Strategic Goal 3:
                                                                                        Ensure the Fair and Efficient
                                                                                         Administration of Justice
                                                                                             $1,043,836; 28%




PERFORMANCE INFORMATION

Data Reliability and Validity
OJP views data reliability and validity as critically important in the planning and assessment of our
performance. As such, this document includes a data verification and validation discussion, and
identifies data limitations for each performance measure. Performance data are considered reliable if
transactions and other data that support reported performance measures are properly recorded,
processed, and summarized to permit the preparation of performance information in accordance with
criteria stated by management. Performance measure data need not be perfect to be reliable--
particularly if the cost or effort of collecting data exceeds its value.




U.S. Department of Justice

                                                          - 10 -
               Management’s Discussion and Analysis




FY 2011 REPORT ON SELECTED RESULTS


DOJ STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the
Rights and Interests of the American People
(72% of OJP’s net costs support this Goal.)
- OJP STRATEGIC GOAL 1: Increase the Nation’s capacity to prevent and control crime


PROGRAM: Weed and Seed

Background/Program Objectives: Prior to its elimination in 2011, the Weed and Seed program
provided an innovative, comprehensive multiagency approach to law enforcement, crime prevention,
and community revitalization. Weed and Seed assists communities with linking federal, state, and
local law enforcement and criminal justice efforts with private sector and community efforts. Weed
and Seed assists communities in “weeding out” violent crime, gang activity, drug use, and drug
trafficking in targeted neighborhoods and “seeding” with programs that lead to social and economic
rehabilitation and revitalization. In addition, Weed and Seed sites engage in community policing
activities that foster proactive police and community engagement and problem solving.

Performance Measure: Homicides per site (funded under the Weed and Seed program)

Discussion of Calendar Year (CY) 2011 Results: This measure was discontinued as of FY 2011.
Because data for this measure were previously reported on a calendar year basis, this document
includes the assessment of CY 2010 results.

Discussion of CY 2010 Results: The target for CY 2010 is to reduce the average number of
homicides per site to 3.7; however the actual average number of homicides per Weed and Seed
site for CY 2010 was 4.6. The Weed and Seed program was not funded after FY 2010 and, as a
result, the 2010 data include data for one calendar quarter that was not funded. As a result of
discontinuation of the program, data for this performance measure will not be reported in the
future.

Revision of CY 2009 Results: Based on additional information, the CY 2009 homicides per site
was revised to 3.9 for active sites.




U.S. Department of Justice

                                              - 11 -
                   Management’s Discussion and Analysis




                                     Figure 1. Number of Homicides Per Site
                     5.0
            500%                                                                          4.6
                                                                                3.9
                               3.7       3.7                 3.5       3.5                      3.7
            400%                                  3.3

            300%
                                                                                                      Actual
            200%
                                                                                                      Target
            100%

             0%
                    FY 2003   FY 2004   FY 2005   FY 2006   FY 2007   FY 2008   FY 2009   FY 2010




Data Definition: Although sites are affected by a range of criminal activities, such as drugs and
vandalism, the Community Capacity Development Office (CCDO) previously selected homicide
statistics as the indicator of the severity of sites’ crimes. The number of homicides per site is an
average calculated by summing the number of homicides reported for all sites and dividing by
the number of sites reporting.

Data collection and storage: Weed and Seed grantees report performance measure data on an
annual basis via web submissions to the Justice Research and Statistics Association (JRSA) and
OJP’s Grants Management System (GMS).

Data validation and verification: CCDO validates and verifies performance measure data
through site visits and follow-up phone calls conducted by JRSA. Additionally, homicide
statistics reported by jurisdictions are verified against the Uniform Crime Report published
annually by the Federal Bureau of Investigation (FBI).

Data limitations: Data for this performance measure are reported by calendar year to coincide
with submissions to the FBI Uniform Crime Reports. The data are not comparable across years
because dissimilar sites are added and graduated (continue to use the Weed and Seed strategy
without additional federal funding) each year, which, due to the small number of sites overall,
can result in greatly affected performance data.

PROGRAM: DNA Backlog Reduction

Background/Program Objectives: The National Institute of Justice (NIJ) funds and administers
the DNA Backlog Reduction Program to increase the capacity of the nation’s public DNA
laboratories and to reduce the number of backlogged casework DNA samples awaiting analysis
and entry into the Combined DNA Index System (CODIS). The overarching goal of the program
is to reduce the size of the DNA casework backlog so that more DNA samples profiles are
available in CODIS for matching to forensic cases, offenders, and arrestees. CODIS matches



U.S. Department of Justice

                                                        - 12 -
                Management’s Discussion and Analysis




offer powerful investigative leads that can solve past crimes and prevent new crimes from
occurring. The long term goal is to increase these laboratories’ capacity by providing funding to
hire additional personnel, purchase automated equipment, and validate new chemistries. The
short term goal is to directly reduce the DNA casework backlog by providing funding for
laboratories to purchase supplies to test cases in-house, to fund overtime for existing personnel to
test cases in-house, or to outsource the DNA samples to another qualified laboratory. In the past,
funds awarded for analysis of backlogged forensic casework DNA samples were only available
for the analysis of violent offense samples (i.e., murder, non-negligent manslaughter and forcible
rape); however, from FY 2008 to date, funds can be used for any criminal DNA case. OJP’s role
in reducing the DNA backlog is to provide funding to qualified labs that apply for federal
funding to assist in analyzing cases.

Performance Measure: Percent reduction in DNA backlog (casework only)

Discussion of FY 2011 Results: OJP’s FY 2011 target for reducing the DNA casework backlog is
25 percent. The DNA backlog was reduced by 32.9 percent, which exceeds the target by 7.9
percentage points.




                  Figure 2. Percent Reduction in DNA Backlog (Casework Only)
               50%                                           45.0%
                                                   37.3%
                                         34.0%
               40%                                                     32.5%     29.0%     32.9%
               30%             21.2%                                                          25.0%
                                                                                                      Actual
               20%
                     10.6%                                                                            Target
               10%

                0%
                     FY 2004   FY 2005   FY 2006   FY 2007   FY 2008   FY 2009   FY 2010   FY 2011




Data Definition: NIJ computes this measure by calculating the cumulative number of samples
requested to be worked with federal overtime, supply, and/or outsourcing assistance as part of
the FY 2011 solicitation process. This number is divided by the total number of backlogged
DNA cases as of December 31 of the year prior to when solicitations are released (for FY 2011,
the number of cases in the backlog as of December 31, 2010). Because the size of the backlog is
assessed at the end of each calendar year, the number of samples in the backlog tends to vary at
other times as more or fewer samples are submitted for analysis and tested. For example, when
more samples are submitted than tested, the number of samples in the backlog necessarily grows.
Likewise, when more samples are tested than were submitted for analysis, the number of samples
in the backlog shrinks.


U.S. Department of Justice

                                                      - 13 -
               Management’s Discussion and Analysis




Data collection and storage: Data for this measure are collected by NIJ program managers and
maintained in office files.

Data validation and verification: The number of cases funded for analysis in FY 2011 is
computed from applications submitted by grantees to the FY 2011 DNA Backlog Reduction
Program. During the course of the grant, which can take up to three years to complete, grant
managers monitor each grant to ensure that grantees are meeting or achieving the targets they
proposed in their applications. To date, on average, grantees have exceeded the targets proposed
in their applications.

Data limitations: None known at this time.


PROGRAM: America’s Missing: Broadcast Emergency Response (AMBER)

Background/Program Objectives: Research shows that it is critical to post and resolve AMBER
Alerts as soon as possible because abductors who murder children are most likely to do so within
four hours following the abduction. The Office of Juvenile Justice and Delinquency Prevention
(OJJDP) administers OJP’s AMBER Program, which supports best practices training and technical
assistance for state and regional AMBER Alert teams. At the end of 2001, there were only four
statewide AMBER Alert plans. Today, all 50 states, two U.S. territories (the U.S. Virgin Islands
and Puerto Rico), and fifteen Indian tribes have plans in place. The AMBER Alert strategy
focuses on:
        (1) Strengthening the existing AMBER Alert system;
        (2) Expanding the scope of AMBER Alert; and
        (3) Enhancing communication and coordination.

Performance Measure: Percent of children recovered within 72 hours of issuing an AMBER Alert

Discussion of FY 2011 Results: The target for FY 2011 is to recover 76 percent of children within
72 hours of issuing an AMBER Alert. OJP exceeded the target with an actual of 90 percent of
victims recovered within 72 hours of an AMBER Alert.

FYs 2002 – 2006: N/A (Measure developed in FY 2007)




U.S. Department of Justice

                                             - 14 -
               Management’s Discussion and Analysis




           Figure 3. AMBER Alert - Percent of Children Recovered Within 72 Hours

                 100%   85.3%      81.9%      81.7%     86.9%      90.0%
                                                                       76%
                  80%
                                                                              Actual
                  60%
                                                                              Target
                  40%

                  20%

                  0%
                        FY 2007    FY 2008    FY 2009    FY 2010    FY 2011




Data Definition: The Amber Alert recovery rate is determined by taking the total number of
children who are recovered within 72 hours of issuance of an Amber Alert, divided by the total
number of children for whom AMBER Alerts were issued for the fiscal year. The result is
expressed as a percentage. Children from cases classified as hoax or unfounded after intake are
excluded from the measure.

Data collection and storage: Data are collected from law enforcement and the National Crime
Information Center database, which stores abducted children’s names and other critical data
elements.

Data validation and verification: Data for this measure are validated and verified through a
review of progress reports submitted by grantees, telephone contacts, and monitoring.

Data limitations: None known at this time.




U.S. Department of Justice

                                             - 15 -
                Management’s Discussion and Analysis




DOJ STRATEGIC GOAL 3: Ensure the Fair and Efficient Administration of Justice
(28% of OJP’s net costs support this Goal.)
- OJP STRATEGIC GOAL 2: Improve the fair administration of justice
- OJP STRATEGIC GOAL 3: Reduce the impact of crime on victims and hold offenders accountable
- OJP STRATEGIC GOAL 4: Increase the understanding of justice issues and develop successful
interventions

PROGRAM: Residential Substance Abuse Treatment (RSAT)

Background/Program Objectives: RSAT formula grant funds are used to implement four types of
programs: 1) residential substance abuse treatment programs that provide individual and group
treatment activities for offenders in residential facilities operated by state correctional agencies;
2) jail-based substance abuse programs that provide individual and group treatment activities for
offenders in jails and local correctional facilities; 3) post-release treatment components that
provide treatment following inmates’ release from custody; and 4) aftercare components that
require states to give preference to subgrant applicants that provide aftercare services to program
participants. For all programs, at least 10 percent of the total state allocation is made available to
local correctional and detention facilities for either residential substance abuse treatment programs
or jail-based substance abuse treatment programs.

Performance Measure: Number of participants in the Residential Substance Abuse Treatment
(RSAT) Program

Discussion of CY 2011 Results: The target for CY 2011 is to have 28,000 participants in RSAT
programs. Data for this measure are collected on a quarterly basis and CY 2011 data will be
available in June 2012.

Discussion of CY 2010 Results: The target for CY 2010 is to have 25,000 participants in RSAT
programs. During CY 2010, OJP RSAT grantees reported that 29,872 individuals participated in
RSAT programs, which exceeded the target by 4,872 participants.




U.S. Department of Justice

                                              - 16 -
               Management’s Discussion and Analysis




                              Figure 4. Number of Participants in RSAT

       45,000
 38,639                                                   39,159
       40,000
                  33,239                                         29,872
       35,000
                         31,740
                                               27,756  26,991 28,308                       28,000
       30,000
          25,521                                                     25,000           Actual
       25,000

       20,000
                                                                                      Target
       15,000

       10,000

        5,000

            0

                CY 2002 CY 2003 CY 2004 CY 2005 CY 2006 CY 2007 CY 2008 CY 2009 CY 2010 CY 2011


Data Definitions: The number of RSAT participants is the count of program participants during
the reporting period. The number of participants is collected from grantees.

Data collection and storage: Program managers obtain data from reports submitted by grantees
into the Bureau of Justice Assistance (BJA) Performance Measurement Tool (PMT).

Data validation and verification: Data are validated and verified through four steps including
program managers’ programmatic monitoring and electronic controls over the data. This
oversight includes a review of all relevant material to determine grant performance, desk reviews
of grantee support documentation, telephone contacts, and on-site grant monitoring.

   1.		 BJA applies front-end business rules and logic to the data grantees enter into the PMT so
        that erroneous data values are rejected. Grantees get an error message if they try to leave
        a required field blank or enter a value that is impossible.
   2.		 BJA applies data cleaning techniques to the back-end data when analyzing it after reporting
        is complete. Follow-up phone calls or outreach may be conducted during this step.
   3.		 BJA grant managers review and validate performance measure data during on-site visits,
        using specific questions pertaining to data included in the checklist. BJA conducts on-site
        monitoring for approximately five percent of active grants.
   4.		 Outside of the on-site visit process, BJA grant managers review and approve the progress
        reports. As a result of this review, the BJA grant manager may contact the grantee to ask
        them to explain or resolve any perceived inconsistent or missing performance measure
        data.

Data limitations: Because of previous data collection limitations regarding the variations in
reporting period for the grantees, BJA migrated the collection of RSAT performance measures to
the PMT, an online data collection tool. The grantees began reporting the RSAT data in the PMT
for the reporting period January 1- June 30, 2009 and have reported on a quarterly basis since
then. The number of RSAT participants for 2010 reflects the 2010 calendar year, but in the
future, because grantees are reporting on a quarterly basis, BJA will be able to report these
numbers on a fiscal or calendar year basis. The issue of variations in grantee reporting periods
has been resolved.


U.S. Department of Justice

                                                - 17 -
                Management’s Discussion and Analysis




PROGRAM: Drug Court

Background/Program Objectives: OJP’s Drug Court program is administered by BJA and
OJJDP. The Drug Court program was established in 1995 to provide financial and technical
assistance to states, state courts, local courts, units of local government, and tribal governments in
order to establish drug treatment courts. Drug courts employ an integrated mix of treatment, drug
testing, incentives, and sanctions to break the cycle of substance abuse and crime. Since 1989,
more than 2,500 jurisdictions have established or are planning to establish a drug court.
Currently, every state and two U.S. territories have one or more drug courts in operation.

The need for drug treatment services is tremendous and OJP has a long history of providing
resources to break the cycle of drugs and violence by reducing the demand, use, and trafficking
of illegal drugs. Twenty-eight percent of the 4.3 million people, who reported to the 2009
National Crime Victimization Survey that they had been a victim of violence, believed that the
perpetrator was using drugs, or drugs in combination with alcohol. Further, 54 percent of jail
inmates were abusing or dependent on drugs, according to Bureau of Justice Statistics (BJS)
2002 Survey of Inmates in Local Jails. Correspondingly, 53 percent of state inmates, and 45
percent of federal inmates abused or were dependent on drugs in the year before their admission
to prison, according to the BJS 2004 Surveys of Inmates in State and Federal Correctional
Facilities.

Performance Measure: Graduation rate of program participants in the Drug Court Program (adult
drug court participants only)

Discussion of FY 2010 Results: The target for FY 2010 is a graduation rate of 71 percent. Drug
Court grantees achieved a graduation rate of 52.6 percent in FY 2010. As a result of not meeting
this target, BJA researched this performance measure and the data reported for it. As described
below, BJA revised the FY 2011 and future targets to be more appropriate targets for the Drug
Court program and participants.

Discussion of FY 2011 Results: The 2011 target for the Drug Court graduation rate was
originally set at 73 percent, but based on both historical grantee reporting and extensive research
into a national average drug court graduation rates, the target was revised in FY 2011 to 48
percent. The national average for drug court graduation rates is 50 percent for established
(mature) drug courts. BJA has been reporting graduation rates for implementation (immature)
grantees, which are just launching start-up activities. The average historical rates for immature
drug courts are near 46 percent. Since, in the future, BJA will report on graduation rates for
implementation (immature) and enhancement (mature) grantees’ graduation rates separately,
BJA established a static target of 48 percent. OJP Drug Court grantees reported that 43 percent
of program participants graduated during FY 2011.




U.S. Department of Justice

                                               - 18 -
               Management’s Discussion and Analysis




FY 2002 – FY 2006: N/A (Measure developed in FY 2005, using a different methodology. As a
result, data from FY 2005 and FY 2006 are not included)

                       Figure 5. Graduation Rate of Drug Court Participants
                                                                           73.0%
                80%
   65.0%      63.2%
                70%
                          57.3%
                60%
                                    52.6%
                50%
                                               43.0%
                                                                                     Actual
                40%

                30%
                                                                 Target
                20%
                10%
                 0%
                       FY 2007     FY 2008    FY 2009    FY 2010    FY 2011



Data Definitions: The graduation rate is calculated by dividing the number of graduates
(successful completions) during the reporting period (numerator) by the sum of the successful
and unsuccessful completions (denominator). Unsuccessful completions stem from failure to
complete program requirements, as a result of actions such as re-arrest or relapse in substance
abuse.

Data collection and storage: Grantees submit data to BJA’s PMT, which is where the data are
maintained.

Data validation and verification: Data are validated and verified through four steps including
program managers’ programmatic monitoring and electronic controls over the data. This
oversight includes a review of all relevant material to determine grant performance, desk reviews
of grantee support documentation, telephone contacts, and on-site grant monitoring.

   1.		 BJA applies front-end business rules and logic to the data grantees enter into the PMT so
        that erroneous data values are rejected. Grantees get an error message if they try to leave
        a required field blank or enter a value that is impossible.
   2.		 BJA applies data cleaning techniques to the back-end data when analyzing it after
        reporting is complete. Follow-up phone calls or outreach may be conducted during this
        step.
   3.		 BJA grant managers review and validate performance measure data during on-site visits,
        using specific questions pertaining to data included in the checklist. BJA conducts on-site
        monitoring for approximately five percent of active grants.
   4.		 Outside of the on-site visit process, BJA grant managers review and approve the progress
        reports. As a result of this review, the BJA grant manager may contact the grantee to ask
        them to explain or resolve any perceived inconsistent or missing performance measure
        data.




U.S. Department of Justice

                                             - 19 -
                Management’s Discussion and Analysis




Data limitations: Graduation rates are not reported for years prior to FY 2007 because the
formula for calculating the rate was changed that year to make it more accurate. Prior to FY
2007, the formula divided the number of graduates by the total number of drug court
participants, regardless of eligibility for graduation and continued program participation and
compliance, which resulted in lower graduation rates. The reporting cycle for these data is
July 1- June 30.

Discontinued OJP Performance Measures From FY 2010 to FY 2011
Homicides per site (funded under the Weed and Seed Program) is discontinued in FY 2011. The
measure is included in this document to report CY 2010 data.

ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

Federal Managers’ Financial Integrity Act of 1982

The Federal Managers’ Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the
statutory basis for management’s responsibility for and assessment of internal accounting and
administrative controls. Such controls include program, operational, and administrative areas, as
well as accounting and financial management. The Integrity Act requires federal agencies to
establish controls that reasonably ensure obligations and costs are in compliance with applicable
law; funds, property, and other assets are safeguarded against waste, loss, unauthorized use, or
misappropriation; and revenues and expenditures are properly recorded and accounted for, in
order to maintain accountability over the assets. The Integrity Act also requires agencies to
annually assess and report on the internal controls that protect the integrity of federal programs
(FMFIA §2) and whether financial management systems conform to related requirements
(FMFIA §4).

Guidance for implementing the Integrity Act is provided through OMB Circular A-123. In
addition to requiring agencies to provide an assurance statement on the effectiveness of
programmatic internal controls and conformance with financial systems requirements, the
Circular requires agencies to provide an assurance statement on the effectiveness of internal
controls over financial reporting. The Department requires components to provide both of the
assurance statements in order to have the information necessary to prepare the agency assurance
statements.

FMFIA Assurance Statement

OJP assessed its internal controls over the effectiveness and efficiency of operations and
compliance with applicable laws and regulations in accordance with OMB Circular A-123, as
required by Section 2 of the FMFIA. Based on the results of this assessment, OJP can provide
reasonable assurance that its internal controls over the effectiveness and efficiency of operations,
financial reporting, and compliance with applicable laws and regulations for the period ending
September 30, 2011, were operating effectively.


U.S. Department of Justice

                                              - 20 -
                Management’s Discussion and Analysis




OJP also assessed whether its financial management systems conform to government-wide,
requirements, as required by Section 4 of the FMFIA. Based on the results of this assessment,
OJP can provide reasonable assurance that its systems substantially conform to government-wide
requirements, except for non-conformances related to information system general controls noted
for account management, annual certification, configuration management, identification and
authentication, and vulnerability management. OJP has submitted a corrective action plan that
includes automatic disablement of accounts, timely annual recertification, implementing a new
secure configuration checklist, enhancing password complexity settings, and timely addressing
detected vulnerabilities to remediate the reported non-conformances.

Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to
improve federal financial and program managers’ accountability, provide better information for
decision-making, and improve the efficiency and effectiveness of federal programs. FFMIA
requires agencies to have financial management systems that substantially comply with federal
financial management systems requirements, applicable federal accounting standards, and the
U.S. Standard General Ledger (USSGL) at the transaction level. The FFMIA also requires
independent auditors to report on agency compliance with the three requirements in the financial
statement audit report. The Federal Information Security Management Act (FISMA) states that
to be substantially compliant with FFMIA, there are to be no significant deficiencies in
information security policies, procedures, or practices.

FFMIA Compliance Determination

In accordance with OMB Circular A-127, Policies and Standards for Financial Management
Systems, OJP’s management has determined that OJP has financial management systems that
substantially comply with federal financial management systems requirements, applicable federal
accounting standards, and the USSGL at the transaction level. As required by the Act, the
independent auditors’ report on agency compliance with the three requirements is provided in the
financial statement audit report. Additionally, in accordance with FISMA, OJP has no significant
deficiencies in information security policies, procedures, or practices.


POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

State, local, and tribal public safety agencies across the country face significant budget-related
challenges that threaten their ability to deliver core services and maintain public safety. After
years of increasingly sophisticated and innovative policing that contributed significantly to
record crime reductions, there is concern that many police agencies will be forced to retreat to a
reactive model of policing that allocates the bulk of police resources and personnel to answer



U.S. Department of Justice

                                              - 21 -
               Management’s Discussion and Analysis




calls for service. It is in this context that OJP’s role becomes even more essential. OJP works
closely with communities to help them adopt evidence-based approaches that maximize
resources and improve results. OJP also encourages closer partnerships and collaborations,
including those between law enforcement agencies and research entities.

OTHER MANAGEMENT INFORMATION, INITIATIVES, AND ISSUES

OJP received $2.76 billion in Recovery Act funding in FY 2009 to assist state and local
communities with the prevention of crime, improvement of criminal justice systems,
and crime victim support, while contributing to job creation and providing much needed
resources for states and local communities. These funds are being administered through the
Bureau of Justice Assistance (BJA), Bureau of Justice Statistics (BJS), National Institute of
Justice (NIJ), Office of Juvenile Justice and Delinquency Prevention (OJJDP), the Office for
Victims of Crime, and Community Capacity Development Office (CCDO). These funds are
being distributed through formula and discretionary grant programs. The bulk of these funds
($1.98 billion) are being distributed through the Edward Byrne Memorial Justice Assistance
Grant Program, which supports all components of the criminal justice system, including but not
limited to, multijurisdictional drug and gang task forces; crime prevention and domestic violence
programs; and courts, corrections, treatment, and justice information sharing initiatives. Please
visit the OJP Recovery Act website, http://www.ojp.usdoj.gov/recovery/, for further details on
announcements, implementation, and reporting of Recovery Act funding and data.


IMPROPER PAYMENTS ELIMINATION AND RECOVERY ACT IMPLEMENTATION

In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement
and Remediation of Improper Payments, and the Departmental guidance for implementing the
Improper Payments Elimination and Recovery Act (IPERA), the Department implemented a
top-down approach to assess the risk of significant improper payments across all five of the
Department’s mission-aligned programs, and to identify and recapture improper payments
through a payment recapture audit program. The approach promotes consistency across the
Department and enhances internal control related to preventing, detecting, and recovering
improper payments. Because of the OMB requirement to assess risk and report payment
recapture audit activities by agency programs, the results of the Department’s risk assessment
and recapture activities are reported at the Department-level only.
In accordance with the Departmental approach for implementing IPERA, OJP assessed its
activities for susceptibility to significant improper payments. OJP also conducted its payment
recapture audit program in accordance with the Departmental approach. OJP provided the
results of both the risk assessment and payment recapture audit activities to the Department for
the Department-level reporting in the FY 2011 Performance and Accountability Report.



U.S. Department of Justice

                                             - 22 -
                Management’s Discussion and Analysis




LIMITATIONS OF THE FINANCIAL STATEMENTS

   The financial statements have been prepared to report the financial position and results of
    operations of OJP, pursuant to the requirements of 31 U.S.C. 3515(b).

   While the statements have been prepared from the books and records of OJP in accordance
    with U.S. generally accepted accounting principles for federal entities and the formats
    prescribed by OMB, the statements are in addition to the financial reports used to monitor
    and control budgetary resources, which are prepared from the same books and records.

   The statements should be read with the realization that they are for a component of the
    U.S. Government, a sovereign entity.




U.S. Department of Justice

                                              - 23 -
This page intentionally left blank. 





                - 24 -
Independent Auditors’ Reports





          - 25 -
This page intentionally left blank. 





                - 26 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




                        Independent Auditors’ Report on Financial Statements


Acting Inspector General
U.S. Department of Justice

Assistant Attorney General
Office of Justice Programs
U.S. Department of Justice

We have audited the accompanying consolidated balance sheets of the U.S. Department of Justice Office of
Justice Programs (OJP) as of September 30, 2011 and 2010, and the related consolidated statements of net
cost and changes in net position, and the combined statements of budgetary resources (hereinafter referred
to as “consolidated financial statements”) for the years then ended. These consolidated financial
statements are the responsibility of OJP’s management. Our responsibility is to express an opinion on
these consolidated financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement. An audit includes
consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
OJP’s internal control over financial reporting. Accordingly, we express no such opinion. An audit also
includes examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
financial statements, assessing the accounting principles used and significant estimates made by
management, as well as evaluating the overall consolidated financial statement presentation. We believe
that our audits provide a reasonable basis for our opinion.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of OJP as of September 30, 2011 and 2010 and its net costs, changes in net
position, and budgetary resources for the years then ended in conformity with U.S. generally accepted
accounting principles.

As discussed in Note 17 to the consolidated financial statements, in fiscal year 2011 OJP changed its
method of accounting for previous years’ unobligated Crime Victims Fund collections.

The information in the Management’s Discussion and Analysis, Required Supplementary Information, and
Required Supplementary Stewardship Information sections is not a required part of the consolidated
financial statements, but is supplementary information required by U.S. generally accepted accounting
principles. We have applied certain limited procedures, which consisted principally of inquiries of
management regarding the methods of measurement and presentation of this information. However, we
did not audit this information and, accordingly, we express no opinion on it.


                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                      - 27 -
Independent Auditors’ Report on Financial Statements
Page 2


In accordance with Government Auditing Standards, we have also issued our reports dated
November 3, 2011, on our consideration of OJP’s internal control over financial reporting and our tests of
its compliance with certain provisions of laws, regulations, contracts, and grant agreements and other
matters. The purpose of those reports is to describe the scope of our testing of internal control over
financial reporting and compliance and the results of that testing, and not to provide an opinion on the
internal control over financial reporting or on compliance. Those reports are an integral part of an audit
performed in accordance with Government Auditing Standards and should be read in conjunction with this
report in assessing the results of our audits.




November 3, 2011




                                             - 28 -
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036-3389




             Independent Auditors’ Report on Internal Control over Financial Reporting


Acting Inspector General
U.S. Department of Justice

Assistant Attorney General
Office of Justice Programs
U.S Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Office of Justice
Programs (OJP) as of September 30, 2011 and 2010, and the related consolidated statements of net cost
and changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 3, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the consolidated financial statements are free of material misstatement.

The management of OJP is responsible for establishing and maintaining effective internal control. In
planning and performing our fiscal year 2011 audit, we considered OJP’s internal control over financial
reporting by obtaining an understanding of OJP’s internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated financial
statements, but not for the purpose of expressing an opinion on the effectiveness of OJP’s internal control
over financial reporting. Accordingly, we do not express an opinion on the effectiveness of OJP’s internal
control over financial reporting. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers’ Financial Integrity Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the
third paragraph of this report and was not designed to identify all deficiencies in internal control over
financial reporting that might be deficiencies, significant deficiencies, or material weaknesses. In our fiscal
year 2011 audit, we did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.




                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.


                                                       - 29 -
We noted certain additional matters that we have reported to management of OJP in a separate letter dated
November 3, 2011.

This report is intended solely for the information and use of OJP’s management, the U.S. Department of
Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 3, 2011




                                             - 30 -
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036-3389




                  Independent Auditors’ Report on Compliance and Other Matters


Acting Inspector General
U.S. Department of Justice

Assistant Attorney General
Office of Justice Programs
U.S. Department of Justice

We have audited the consolidated balance sheets of the U.S. Department of Justice Office of Justice
Programs (OJP) as of September 30, 2011 and 2010, and the related consolidated statements of net cost
and changes in net position, and the combined statements of budgetary resources (hereinafter referred to as
“consolidated financial statements”) for the years then ended, and have issued our report thereon dated
November 3, 2011.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audit to obtain reasonable assurance about whether
the consolidated financial statements are free of material misstatement.

The management of OJP is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to OJP. As part of obtaining reasonable assurance about whether OJP’s fiscal year
2011 consolidated financial statements are free of material misstatement, we performed tests of OJP’s
compliance with certain provisions of laws, regulations, contracts, and grant agreements, noncompliance
with which could have a direct and material effect on the determination of the consolidated financial
statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04, including the provisions referred to in Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to the provisions described in the
preceding sentence, and we did not test compliance with all laws, regulations, contracts, and grant
agreements applicable to OJP. However, providing an opinion on compliance with those provisions was
not an objective of our audit, and accordingly, we do not express such an opinion.

The results of our tests of compliance discussed in the preceding paragraph, exclusive of those referred to
in FFMIA, disclosed no instances of noncompliance or other matters that are required to be reported herein
under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed no instances in which OJP’s financial management system did
not substantially comply with the (1) Federal financial management systems requirements, (2) applicable
Federal accounting standards, and (3) application of the United States Government Standard General
Ledger at the transaction level.




                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.


                                                      - 31 -
Independent Auditors’ Report on Compliance and Other Matters
Page 2


This report is intended solely for the information and use of OJP’s management, the U.S. Department of
Justice Office of the Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 3, 2011




                                            - 32 -
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                       - 33 -
                                                           U.S. Department of Justice

                                                           Office of Justice Programs

                                                          Consolidated Balance Sheets

                                                       As of September 30, 2011 and 2010





Dollars in Thousands                                                                              2011             2010

ASSETS
    Intragovernmental
       Fund Balance with U.S. Treasury (Note 2)                                       $     11,287,838   $   10,519,156
       Accounts Receivable, Net (Note 3)                                                         6,970            6,883
       Other Assets (Note 5)                                                                    78,034           76,831
    Total Intragovernmental                                                                 11,372,842       10,602,870

     Accounts Receivable, Net (Note 3)                                                           6,056            5,774
     General Property, Plant and Equipment, Net (Note 4)                                        12,526           12,032
     Advances and Prepayments                                                                1,009,997        1,428,298
Total Assets                                                                          $     12,401,421   $   12,048,974

LIABILITIES (Note 6)
    Intragovernmental
       Accounts Payable                                                               $        54,240    $      18,928
       Accrued Federal Employees' Compensation Act Liabilities                                     86              129
       Other Liabilities (Note 8)                                                             117,275          147,914
    Total Intragovernmental                                                                   171,601          166,971

     Accounts Payable                                                                          24,177           33,369
     Accrued Grant Liabilities                                                                369,245          383,171
     Actuarial Federal Employees' Compensation Act Liabilities                                    680              657
     Accrued Payroll and Benefits                                                               8,182            7,930
     Accrued Annual and Compensatory Leave Liabilities                                          6,148            6,068
     Capital Lease Liabilities (Note 7)                                                            14               18
Total Liabilities                                                                     $       580,047    $     598,184

Contingencies and Commitments (Note 9)

NET POSITION
     Unexpended Appropriations - All Other Funds                                      $      4,605,970   $    5,571,977
     Cumulative Results of Operations - Earmarked Fund (Note 10)                             7,202,248        5,866,596
     Cumulative Results of Operations - All Other Funds                                         13,156           12,217
Total Net Position                                                                    $     11,821,374   $   11,450,790

Total Liabilities and Net Position                                                    $     12,401,421   $   12,048,974




  U.S. Department of Justice
                       The accompanying notes are an integral part of these financial statements.


                                                                 - 34 -
                                                        U.S. Department of Justice

                                                        Office of Justice Programs

                                                  Consolidated Statements of Net Cost

                                        For the Fiscal Years Ended September 30, 2011 and 2010





Dollars in Thousands

                                      Gross Costs                              Less: Earned Revenues                          Net Cost of
                          Intra­       With the                           Intra­        With the                              Operations
             FY        governmental     Public             Total       governmental      Public                Total           (Note 11)

Goal 2      2011       $   158,557    $ 2,522,078      $ 2,680,635      $     32,277     $          45    $      32,322   $      2,648,313
            2010       $   140,429    $ 2,617,542      $ 2,757,971      $     49,844     $           7    $      49,851   $      2,708,120

Goal 3      2011            65,346         988,930        1,054,276           10,440                  -          10,440          1,043,836
            2010            56,647         931,583          988,230           26,252                  -          26,252            961,978

Total       2011       $   223,903    $ 3,511,008      $ 3,734,911      $     42,717     $          45    $      42,762   $      3,692,149
            2010       $   197,076    $ 3,549,125      $ 3,746,201      $     76,096     $           7    $      76,103   $      3,670,098

Goal 2    Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
Goal 3    Ensure the Fair and Efficient Administration of Justice




  U.S. Department of Justice
                       The accompanying notes are an integral part of these financial statements.


                                                               - 35 -
                                            U.S. Department of Justice

                                            Office of Justice Programs

                                   Consolidated Statements of Changes in Net Position

                                     For the Fiscal Year Ended September 30, 2011





Dollars in Thousands

                                                                            2011
                                                 Earmarked             All Other
                                                   Funds                Funds                    Total

Unexpended Appropriations
 Beginning Balances                             $              -   $     5,571,977           $    5,571,977

 Budgetary Financing Sources
  Appropriations Received                                      -          1,893,160                1,893,160
  Appropriations Transferred-In/Out                            -            200,344                  200,344
  Other Adjustments                                            -            (45,365)                 (45,365)
  Appropriations Used                                          -         (3,014,146)              (3,014,146)
 Total Budgetary Financing Sources                             -          (966,007)                (966,007)

 Unexpended Appropriations                      $              -   $     4,605,970           $    4,605,970


Cumulative Results of Operations
 Beginning Balances                             $     5,866,596    $       12,217            $    5,878,813

 Budgetary Financing Sources
  Appropriations Used                                          -          3,014,146                3,014,146
  Nonexchange Revenues                                 1,998,221                508                1,998,729

 Other Financing Sources
  Transfers-In/Out Without Reimbursement                       -            10,600                    10,600
  Imputed Financing from Costs Absorbed
     by O thers (Note 12)                                     -              5,265                     5,265
 Total Financing Sources                              1,998,221         3,030,519                 5,028,740

 Net Cost of Operations                                (662,569)        (3,029,580)              (3,692,149)

 Net Change                                           1,335,652                939                1,336,591

 Cumulative Results of Operations               $     7,202,248    $       13,156            $    7,215,404

Net Position                                    $     7,202,248    $    4,619,126            $   11,821,374




 U.S. Department of Justice
                The accompanying notes are an integral part of these financial statements.


                                                    - 36 -
                                           U.S. Department of Justice

                                           Office of Justice Programs

                            Consolidated Statements of Changes in Net Position (continued)

                                    For the Fiscal Year Ended September 30, 2010





Dollars in Thousands

                                                                            2010
                                                   Earmarked           All Other
                                                     Funds              Funds                    Total

Unexpended Appropriations
 Beginning Balances                            $               -   $     5,951,999           $    5,951,999


 Budgetary Financing Sources
  Appropriations Received                                      -          2,501,851                2,501,851
  Appropriations Transferred-In/Out                            -            200,453                  200,453
  Other Adjustments                                            -            (54,000)                 (54,000)
  Appropriations Used                                          -         (3,028,326)              (3,028,326)
 Total Budgetary Financing Sources                             -          (380,022)                (380,022)

 Unexpended Appropriations                     $               -   $     5,571,977           $    5,571,977

Cumulative Results of Operations
 Beginning Balances                            $     4,112,981     $        15,014           $    4,127,995

 Budgetary Financing Sources
  Appropriations Used                                         -           3,028,326                3,028,326
  Nonexchange Revenues                                2,362,338                 932                2,363,270

 Other Financing Sources
  Transfers-In/Out Without Reimbursement                       -             24,608                   24,608
  Imputed Financing from Costs Absorbed
    by Others (Note 12)                                      -                4,712                    4,712
 Total Financing Sources                             2,362,338           3,058,578                5,420,916

 Net Cost of Operations                               (608,723)         (3,061,375)              (3,670,098)

 Net Change                                          1,753,615              (2,797)               1,750,818

 Cumulative Results of Operations              $     5,866,596     $        12,217           $    5,878,813

Net Position                                   $     5,866,596     $     5,584,194           $   11,450,790



 U.S. Department of Justice
                The accompanying notes are an integral part of these financial statements.


                                                   - 37 -
                                                  U.S. Department of Justice

                                                  Office of Justice Programs

                                         Combined Statements of Budgetary Resources

                                    For the Fiscal Years Ended September 30, 2011 and 2010





Dollars in Thousands                                                                   2011               2010

Budgetary Resources

    Unobligated Balance, Brought Forward, October 1                         $      232,500      $     224,290

    Recoveries of Prior Year Unpaid Obligations                                     54,156             66,225

    Budget Authority
      Appropriations Received                                                    8,692,854          4,864,189
      Spending Authority from Offsetting Collections
         Earned
             Collected                                                              62,049            129,382
             Change in Receivables from Federal Sources                                 87             (3,489)
         Change in Unfilled Customer Orders
             Advance Received                                                      (28,370)           (83,090)
             Without Advance from Federal Sources                                     (517)             4,745
    Subtotal Budget Authority                                                    8,726,103          4,911,737

    Nonexpenditure Transfers, Net, Actual                                          200,344            200,453

    Temporarily not Available Pursuant to Public Law                             (6,099,743)        (1,654,425)

    Permanently not Available                                                      (45,654)           (54,000)

Total Budgetary Resources (Note 13)                                         $    3,067,706      $   3,694,280




 U.S. Department of Justice
                   The accompanying notes are an integral part of these financial statements.


                                                          - 38 -
                                                      U.S. Department of Justice

                                                      Office of Justice Programs

                                       Combined Statements of Budgetary Resources (continued)

                                       For the Fiscal Years Ended September 30, 2011 and 2010





Dollars in Thousands                                                                   2011               2010

Status of Budgetary Resources

    Obligations Incurred
      Direct                                                                 $    2,848,111      $   3,434,149
      Reimbursable                                                                   32,133             27,631
         Total Obligations Incurred (Note 13)                                     2,880,244          3,461,780
    Unobligated Balance - Available
      Apportioned                                                                   169,067           208,972
    Unobligated Balance not Available                                                18,395            23,528

Total Status of Budgetary Resources                                          $    3,067,706      $   3,694,280

Change in Obligated Balance

    Obligated Balance, Net - Brought Forward, October 1
      Unpaid Obligations                                                     $    5,510,847      $   5,959,947
      Less: Uncollected Customer Payments from Federal Sources                       25,666             24,410
          Total Unpaid Obligated Balance, Net - Brought Forward, October 1        5,485,181          5,935,537
    Obligations Incurred, Net                                                     2,880,244          3,461,780
    Less: Gross Outlays                                                           3,311,068          3,844,655
    Less: Recoveries of Prior Year Unpaid Obligations, Actual                        54,156             66,225
    Change in Uncollected Customer Payments from Federal Sources                        430             (1,256)

     Obligated Balance, Net - End of Period
       Unpaid Obligations                                                         5,025,867          5,510,847
       Less: Uncollected Customer Payments from Federal Sources                      25,236             25,666
          Total Unpaid Obligated Balance, Net - End of Period                $    5,000,631      $   5,485,181

Net Outlays
    Gross Outlays                                                            $    3,311,068      $   3,844,655
    Less: Offsetting Collections                                                     33,683             46,292
    Less: Distributed Offsetting Receipts (Note 13)                                     206                242
Total Net Outlays (Note 13)                                                  $    3,277,179      $   3,798,121




  U.S. Department of Justice
                    The accompanying notes are an integral part of these financial statements.


                                                        - 39 -
                                 U.S. Department of Justice

                                  Office of Justice Programs

                              Notes to the Financial Statements

              As of and For the Fiscal Years Ended September 30, 2011 and 2010
                          (Dollars in Thousands, Except as Noted)


 1.   Summary of Significant Accounting Policies

      A. Reporting Entity

      The Office of Justice Programs (OJP) is a reporting entity within the U.S. Department of
      Justice (DOJ). The Justice Act of 1984 created OJP to work within established partnership
      arrangements with federal, state and local agencies and community-based organizations to
      develop, operate, and evaluate a wide range of criminal and juvenile justice programs. OJP is
      authorized by Congress to award grants, contracts, cooperative agreements, and other
      assistance authorized by Title I of the Omnibus Crime Control and Safe Street Act of 1968.
      OJP is primarily funded by several no-year, multi-year, and annual appropriations.

      The American Recovery and Reinvestment Act of 2009 (Recovery Act) (P.L. 111-5) was
      signed into law by President Barack Obama on February 17, 2009. As one of its many
      elements, the Recovery Act provides the DOJ with funding for grants to assist state, local,
      and tribal law enforcement (including support for hiring), to combat violence against women,
      to fight internet crimes against children, to improve the functioning of the criminal justice
      system, to assist victims of crime, and to support youth mentoring.

      OJP is comprised of the following bureaus and program offices:

      Bureau of Justice Assistance (BJA) provides leadership and assistance in support of local
      criminal justice strategies to achieve safe communities. BJA’s goals are to reduce and
      prevent crime, violence, and drug abuse and to improve the functioning of the criminal
      justice system. BJA administers programs that bolster law enforcement operations, expand
      drug courts, and provide benefits to public safety officers.

      Bureau of Justice Statistics (BJS) is the primary statistical agency of the DOJ. BJS
      collects, analyzes, publishes, and disseminates information on crime, criminal offenders,
      crime victims, and criminal justice operations, and provides financial and technical support to
      state, local, and tribal governments to improve their statistical capabilities and the quality and
      utility of their criminal history records.




U.S. Department of Justice
                     These notes are an integral part of these financial statements.
	


                                                - 40 -
    A.     Reporting Entity (continued)

    National Institute of Justice (NIJ) is the research arm of the DOJ and is dedicated to
    researching crime control and justice issues. NIJ advances the application of science and
    technology to matters of criminal justice by providing objective, independent, evidence-based
    knowledge and tools to meet the challenges posed by crime.

    Office of Juvenile Justice and Delinquency Prevention (OJJDP) supports state and
    community efforts to prevent and respond to juvenile delinquency and victimization.
    Through programs that offer mentoring, provide treatment and rehabilitation, and hold
    juvenile offenders accountable, OJJDP strives to improve the juvenile justice system so that
    the public is better protected, and youth and their families are better served.

    Office for Victims of Crime (OVC) works to enhance America’s capacity to assist crime
    victims by helping to change attitudes, policies, and practices. OVC supports a wide range of
    activities using the Crime Victims’ Fund (CVF), which is composed of federal criminal fines
    and penalties, special assessments, and bond forfeitures. These activities include victim
    compensation and assistance services, training and technical assistance for service providers
    and criminal justice professionals, and program evaluation.

    Office of Sex Offender Sentencing, Monitoring, Apprehending, Registering, and
    Tracking (SMART Office) was authorized by the Adam Walsh Child Protection and Safety
    Act of 2006. The primary assignment of the SMART Office is to ensure that convicted sex
    offenders are prohibited from preying on citizens through an organization of restrictions,
    regulations, and internment. The SMART Office is responsible for establishing and
    maintaining the standards for the Sex Offender Registration and Notification Program, as
    described by the Adam Walsh Act. The SMART Office also oversees grant programs
    regarding sex offender registration and notification.

    OJP Principal Accounts

    In fiscal years (FYs) 2011 and 2010, OJP’s financial structure was comprised of these
    principal accounts: Justice Assistance (JA), State and Local Law Enforcement Assistance
    (SLLEA), Juvenile Justice Programs (JJ), Public Safety Officers’ Benefits (PSOB) Program,
    Salaries and Expenses, and the CVF.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.
	


                                              - 41 -
    A.    Reporting Entity (continued)

    OJP Goals

    In compliance with the statutory framework of the Government Performance and Results Act
    (GPRA) of 1993 (P.L. 103-62), OJP aligns its programs and activities with Goals 2 and 3 of
    the Attorney General’s strategic goals, which are:

         Goal 2 – Prevent Crime, Enforce Federal Laws, and Represent the Rights and
                  Interests of the American People
         1. Increase the Nation’s capacity to prevent and control crime

         Goal 3 – Ensure the Fair and Efficient Administration of Justice
         2. Improve the fair administration of justice
         3. Reduce the impact of crime on victims and hold offenders accountable
         4. Increase the understanding of justice issues and develop successful interventions

    B. Basis of Presentation

    These financial statements were prepared from the books and records of OJP, in accordance
    with the United States generally accepted accounting principles issued by the Federal
    Accounting Standards Advisory Board (FASAB) and presentation guidelines of the Office of
    Management and Budget (OMB) Circular A-136, Financial Reporting Requirements. These
    financial statements are different from the financial reports prepared pursuant to OMB
    directives which are used to monitor and control the use of OJP’s budgetary resources.
    To ensure that the OJP financial statements are meaningful at the entity level and to enhance
    reporting consistency within the Department, Other Assets and Other Liabilities, as defined
    by OMB Circular A-136 have been disaggregated on the balance sheet. These include
    Advances and Prepayments, Accrued Federal Employees’ Compensation Act (FECA)
    Liabilities, Accrued Payroll and Benefits, Accrued Annual and Compensatory Leave
    Liabilities, Accrued Grant Liabilities with the Public, and Capital Lease Liabilities.

    C. Basis of Consolidation

    The consolidated/combined financial statements include the accounts of OJP. All significant
    proprietary intra-entity transactions and balances have been eliminated in consolidation. The
    Statements of Budgetary Resources are combined statements for FYs 2011 and 2010, and as
    such, intra-entity transactions have not been eliminated.




U.S. Department of Justice
                    These notes are an integral part of these financial statements.
	


                                               - 42 -
    D. Basis of Accounting

    Transactions are recorded on the accrual and budgetary bases of accounting. Under the
    accrual basis, revenues are recorded when earned and expenses are recorded when incurred,
    regardless of when cash is exchanged. Under the budgetary basis, however, funds
    availability is recorded based upon legal considerations and constraints. As a result, certain
    line items on the proprietary financial statements may not equal similar line items on the
    budgetary financial statements.

    E. Non-Entity Assets

    Non-entity assets are assets held by an entity but are not available for use by the entity. OJP
    does not have any non-entity assets.

    F. Fund Balance with U.S. Treasury and Cash

    The Fund Balance with U.S. Treasury includes appropriated funds that are available to pay
    current liabilities and to fund authorized purchase commitments. The U.S. Department of
    Treasury (Treasury) processes the cash receipts and cash disbursements of OJP. OJP’s
    records are reconciled with those of Treasury.

    Available unobligated balances represent amounts that are apportioned for obligation in the
    current fiscal year. Unavailable unobligated balances represent amounts that are not
    apportioned for obligation during the current fiscal year and expired appropriations no longer
    available to incur new obligations. Obligated balances not yet disbursed include undelivered
    orders and unpaid delivered orders.

    G. Accounts Receivable

    Intragovernmental Accounts Receivable result from reimbursable agreements entered into by
    OJP with other federal agencies for various goods and services. Since OJP’s accounts
    receivable balance consists of amounts due by other federal agencies, an allowance for
    doubtful accounts has not been established.

    Accounts Receivable with the Public is an estimate of amounts due from grantees for expired
    grants. OJP evaluates the necessity of establishing the allowance for doubtful accounts based
    on historical trends of collectability of closed grants.

    Pursuant to 28 CFR Part II, OJP has authorized Treasury’s Financial Management Service to
    collect debts on our behalf. When OJP determines that our internal efforts are unsuccessful,
    the debtor is referred to Treasury for collection. The types of debts that are normally referred
    to Treasury are grants and payment programs with the public.



U.S. Department of Justice
                   These notes are an integral part of these financial statements.
	


                                              - 43 -
    H. General Property, Plant and Equipment

    The U.S. General Services Administration (GSA) provides the buildings in which OJP
    operates and charges rent equivalent to the commercial rental rates for similar properties.
    Acquisitions of equipment and assets under capital lease costing twenty-five thousand dollars
    or more are capitalized. Depreciation is calculated using the straight-line basis using
    historical cost and a five-year useful life. Equipment with an acquisition cost of less than
    twenty-five thousand dollars is expensed when purchased. Equipment consists primarily of
    computer network components.

    Internal Use Software meeting the cost threshold and useful life criteria is also capitalized.
    Internal Use Software is either purchased off the shelf and modified, internally developed, or
    contractor developed solely to meet the agency’s internal needs. OJP capitalizes the cost of
    internal use software when the development phase costs exceed five hundred thousand
    dollars and the software is expected to have a service life of two or more years. Amortization
    is calculated using the straight-line basis using historical cost and a five-year useful life.

    I. Advances and Prepayments

    Advances and Prepayments, classified as assets on OJP’s Balance Sheet, represent funds
    disbursed to individuals and other organizations for which goods or services have not yet
    been provided. OJP awards grants to various grantees and provides advance payments to
    grantees to meet their cash needs to carry out their programs. Advance payments are
    recorded as “Advances to Grantees” and are adjusted upon grantees’ reporting expenditures
    and/or based on the estimated accrual for unreported expenses. These balances primarily
    consist of funds disbursed to grantees in the Justice Assistance Grant Program, as well as
    advances for discretionary/non-block grants.

    Advances and Prepayments involving other federal agencies are classified as Other Assets on
    the Balance Sheet.


    J. Liabilities

    Liabilities represent actual and estimated amounts likely to be paid as a result of transactions
    or events that have already occurred. However, no liabilities can be paid by OJP without an
    appropriation or other collection of revenue for services provided. Liabilities not covered by
    budgetary resources include liabilities for which an appropriation has not been enacted and
    there is no certainty that it will be enacted.

    Accounts Payable primarily consists of amounts due for goods and services received,
    progress in contract performance, interest due on accounts payable, and other miscellaneous
    payables.

U.S. Department of Justice
                     These notes are an integral part of these financial statements.


                                                - 44 -
    K. Accrued Grant Liabilities

    Disbursements of grant funds are recognized as expenses at the time of disbursement.
    However, some grant recipients incur expenditures prior to initiating a request for
    disbursement based on the nature of the expenditures. OJP accrues an estimated liability for
    expenditures incurred by grantees prior to their receiving grant funds for the expenditures.
    These estimates are based on the most current information available to OJP at the time the
    financial statements are prepared. OJP’s management has established a process to review
    these estimates in the context of subsequent changes in activity and assumptions, and to
    reflect the impact of these changes as appropriate.

    Estimates for the grant accrual contain assumptions that have an impact on the financial
    statements. The key assumptions used in the grant accrual are: grantees have consistent
    spending patterns throughout the life of the grant, grantees will drawdown throughout the life
    of the grant, and the grant has a determined end date. The primary elements of these
    assumptions include, but are not limited to, type of grant that has been awarded, grant period,
    accounting basis used by the grantees, and grant expenditure rate.

    L. Contingencies and Commitments

    OJP is party to various administrative proceedings, legal actions, and claims. The balance
    sheet includes an estimated liability for those legal actions where management and the Chief
    Counsel consider adverse decisions “probable” and amounts are reasonably estimable.
    However, there are cases where amounts have not been accrued because the amounts of the
    potential loss cannot be estimated or the likelihood of an unfavorable outcome is “remote”.

    M. Annual, Sick, and Other Leave

    Annual and compensatory leave is expensed with an offsetting liability as it is earned and the
    liability is reduced as leave is taken. At the end of each quarter, the balance in the accrued
    annual leave liability reflects current pay rates and leave balances. Because current or prior
    year appropriations are not available to fund annual and compensatory leave earned but not
    taken, funding will be obtained from future financing sources.

    Sick leave and other types of non-vested leave are expensed as taken.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.
	


                                              - 45 -
    N. Interest on Late Payments

    Pursuant to the Prompt Payment Act, 31 U.S.C. 3901-3907, federal agencies must pay
    interest on payments for goods or services made to business concerns after the due date. The
    due date is generally 30 days after the latest of the following dates: (1) date on the invoice,
    (2) date the invoice is received, (3) date when the goods or services are received, or (4) the
    date when the goods or services are accepted.

    O. Retirement Plans

    With few exceptions, employees hired before January 1, 1984, are covered by the Civil
    Service Retirement System (CSRS) and employees hired on or after that date are covered by
    the Federal Employees Retirement System (FERS).

    For employees covered by the CSRS, OJP contributes 7.0 percent of the employee’s gross
    pay for normal retirement. For employees covered by the FERS, OJP contributes
    approximately 11.7 percent of gross pay. All employees are eligible to contribute to the
    Federal Thrift Savings Plan (TSP). For those employees covered by the FERS, a TSP
    account is established and OJP contributes 1.0 percent of gross pay to this plan. In addition,
    for FERS employees, TSP contributions are matched 100.0 percent for the first 3.0 percent
    and 50.0 percent for the 4th and 5th percentage of gross pay. No matching contributions are
    made to the TSP accounts for those employees covered by CSRS. The accompanying
    financial statements do not report CSRS or the FERS assets, accumulated plan benefits, or
    unfunded liabilities, if any, which may be applicable to OJP employees. Such reporting is the
    responsibility of the Office of Personnel Management (OPM).

    Contributions for CSRS, FERS and other retirement benefits are insufficient to fully fund the
    programs, which are subsidized by the OPM. The Department imputes its share of the OPM
    subsidy, using cost factors OPM provides, and reports the full cost of the programs related to
    its employees.

    P. Federal Employee Compensation Benefits

    The Federal Employees’ Compensation Act (FECA) provides income and medical cost
    protection to covered federal civilian employees injured on the job, employees who have
    contracted a work-related occupational disease, and beneficiaries of employees whose death
    is attributable to a job-related injury or occupational disease. Claims incurred for benefits for
    OJP employees under FECA are administered by the U.S. Department of Labor (DOL) and
    are ultimately paid by OJP. The FECA liability consists of two components. The first
    component is based on actual claims paid by the DOL but not yet reimbursed by OJP. OJP
    reimburses the DOL for the amount of actual claims as funds are appropriated for this
    purpose. There is generally a two- to three-year time period between payment by the DOL
    and reimbursement by OJP. As a result, a liability is recognized for the actual claims paid by

U.S. Department of Justice
                   These notes are an integral part of these financial statements.
	


                                              - 46 -
    P. Federal Employee Compensation Benefits (continued)

    the DOL and to be reimbursed by OJP.

    The second component is the estimated liability for future benefit payments as a result of past
    events. The DOL calculates the liability of the federal government for future compensation
    benefits, which includes the expected liability for death, disability, medical, and other
    approved costs. This method utilizes historical benefit payment patterns related to a specified
    incurred period to predict the ultimate payments related to that period. The projected annual
    benefit payments were discounted to present value. The resulting federal government
    liability was then distributed by the DOL to the agencies. DOJ calculates and distributes
    each bureau’s respective portion of the total DOJ actuarial liability that is recorded for
    reporting purpose only. OJP’s portion of this liability includes the estimated future cost of
    death benefits, workers’ compensation, medical, and miscellaneous cost for approved
    compensation cases for OJP employees.

    Q. Intragovernmental Activity

    Intragovernmental costs and exchange revenue represent transactions made between two
    reporting entities within the federal government. Costs and earned revenues with the public
    represent exchange transactions made between the reporting entity and a non-federal entity.
    The classification of revenue or costs as “intragovernmental” or “with the public” is defined
    on a transaction-by-transaction basis. The purpose of this classification is to enable the
    federal government to prepare consolidated financial statements, not to match public and
    intragovernmental revenue with the costs incurred to produce public and intragovernmental
    revenue.

    R. Revenues and Other Financing Sources

    OJP receives funding needed to support its activities through no-year, multi-year and annual
    appropriations that may be used, within statutory limits, for operating and capital
    expenditures. Additionally, OJP earns exchange revenue through inter-agency agreements
    with other federal entities for which OJP provides grant administration services. The
    majority of the partnering is with other DOJ components. Revenues are recognized at the
    time related program or administrative expenses are incurred. For agreements, OJP records
    its intra-agency agreements as either exchange revenue or transfers-in, depending on the
    corresponding treatment by other DOJ components, to facilitate the DOJ-wide elimination
    process. The revenue generated from these reimbursable activities is based on the full cost
    pricing policy. Under full cost pricing, indirect costs and overheads are fully absorbed into
    the costs of activities.

    OJP receives nonexchange revenue for the CVF from collections of fines, penalty
    assessments, and bond forfeitures from defendants convicted of federal crimes. The CVF

U.S. Department of Justice
                   These notes are an integral part of these financial statements.


                                              - 47 -
    R.	 Revenues and Other Financing Sources (continued)

    was established by the Victims of Crime Act of 1984 (P.L. 98-473), as amended by the
    Children’s Justice and Assistance Act of 1986 (P.L. 99-401), and reauthorized by the Anti-
    Drug Abuse Act of 1988 (P.L. 100-690). Funds collected are available for obligation subject
    to Congressional limitation.

    S.	 Earmarked Funds

    As defined in Statements of Federal Financial Accounting Standards (SFFAS) No. 27,
    Identifying and Reporting Earmarked Funds, earmarked funds are financed by specifically
    identified revenues, often supplemented by other financing sources, which remain available
    over time. These specifically identified revenues and other financing sources are required by
    statute to be used for designated activities, benefits or purposes, and must be accounted for
    separately from the Government’s general revenues. The CVF is the only OJP fund meeting
    the criteria listed below.

    The three required criteria for an earmarked fund are:

        1. 	 A statute committing the federal government to use specifically identified revenues
             and other financing sources only for designated activities, benefits, or purposes;

        2.		 Explicit authority for the earmarked fund to retain revenues and other financing
             sources not used in the current period for future use to finance the designated
             activities, benefits, or purposes; and

       3.		 A requirement to account for and report on the receipt, use, and retention of the
            revenues and other financing sources that distinguishes the earmarked fund from the
            Government’s general revenues.

    T. 	Allocation Transfer of Appropriations

    OJP is a party to allocation transfers with another federal agency as a transferring (parent)
    entity. Allocation transfers are legal delegations by one department of its authority to
    obligate budget authority and outlay funds to another department. A separate fund account
    (allocation account) is created in the U.S. Treasury as a subset of the parent fund account for
    tracking and reporting purposes. All allocation transfers of balances are credited to this
    account, and subsequent obligations and outlays incurred by the child entity are charged to
    this allocation account as they execute the delegated activity on behalf of the parent entity.
    Generally, all financial activity related to these allocation transfers (e.g., budget authority,
    obligations, outlays) is reported in the financial statements of the parent entity, from which
    the underlying legislative authority, appropriations, and budget apportionments are derived.



U.S. Department of Justice
                   These notes are an integral part of these financial statements.
	


                                              - 48 -
    U. Tax Exempt Status

    As an agency of the federal government, OJP is exempt from all income taxes imposed by
    any governing body whether it be a federal, state, commonwealth, local, or foreign
    government.

    V. Use of Estimates

    The preparation of the financial statements requires management to make certain estimates
    and assumptions that affect the reported amounts of assets and liabilities and the reported
    amounts of revenue and expenses during the reporting period. Actual results could differ
    from those estimates.

    The assumptions are continuously reviewed and refined in order to reflect the variance
    between the estimate and actual data. OJP recognizes the sensitivity of the changes in
    assumptions and the impact that the projections can have on estimates.

    W. Reclassifications

    The FY 2010 statements were revised to conform to the FY 2011 Departmental financial
    statement presentation requirements. The reclassifications had no material effect on total
    assets, liabilities, net position, change in net position or budgetary resources as previously
    reported.

    X. Subsequent Events

    Subsequent events and transactions occurring after September 30, 2011 through the date of
    the auditors’ opinion have been evaluated for potential recognition or disclosure in the
    financial statements. The date of the auditors’ opinion also represents the date that the
    financial statements were available to be issued.




U.S. Department of Justice
                   These notes are an integral part of these financial statements.
	


                                              - 49 -
2.    Fund Balance with U.S. Treasury

The Fund Balance with U.S. Treasury, as reported in the financial statements, represents the
unexpended cash balances in OJP’s accounting records for all OJP Treasury Symbols, as of
September 30, 2011 and 2010. The CVF Fund Balance with Treasury is presented as Special Funds
type.

The unobligated balance for annual, multi-year, and no-year budget authority may be used to incur
new obligations for the purpose specified by the appropriation act. Annual and multi-year budget
authority expires at the end of its period of availability. During the first through the fifth expired
years, the unobligated balance becomes unavailable and may be used to adjust obligations and
disbursements that were recorded before the budgetary authority expired or to meet a legitimate or
bona fide need arising in the fiscal year for which the appropriation was made. The unobligated
balance for no-year budget authority may be used to incur obligations indefinitely for the purpose
specified by the appropriation act.

Under the Status of Fund Balances, the CVF funds unavailable for spending are included in Other
Funds without Budgetary Resources.

An analysis of the balances as of September 30, 2011 and 2010 is provided below:



       As of September 30, 2011 and 2010
                                                                        2011                    2010
       Fund Balances
        Special Funds                                             $     7,260,185           $  5,938,699
        General Funds                                                   4,027,653              4,580,457
          Total Fund Balances with U.S. Treasury                  $    11,287,838           $ 10,519,156

       Status of Fund Balances
         Unobligated Balance - Available                          $       169,067           $    208,972
         Unobligated Balance - Unavailable                                 18,395                 23,528
         Obligated Balance not yet Disbursed                            5,000,631              5,485,181
         Other Funds (With)/Without Budgetary Resources                 6,099,745              4,801,475
           Total Status of Fund Balances                          $    11,287,838           $ 10,519,156




     U.S. Department of Justice
                        These notes are an integral part of these financial statements.
	


                                                   - 50 -
3.     Accounts Receivable, Net

Accounts Receivable represent the amounts due to OJP, as of September 30, 2011 and 2010, as
shown in the following table. Accounts Receivable with the Public is an estimate of amounts
due from grantees for expired grants and grants that have been referred to Treasury for debt
collection.



           As of September 30, 2011 and 2010
                                                                          2011                   2010
           Intragovernmental
               Accounts Receivable                                 $           6,970        $          6,883

           With the Public
              Accounts Receivable                                              6,056                5,774
                 Total Accounts Receivable, Net                    $          13,026        $      12,657




4.     General Property, Plant and Equipment, Net

Property, Plant and Equipment, as reported in the financial statements, is recorded at the acquisition
cost, net of accumulated depreciation, as of September 30, 2011 and 2010. In FYs 2011 and 2010,
OJP purchased $4,768 and $4,141 respectively, in property, plant, and equipment. All equipment has
been purchased through non-federal sources. See Note 1.H. for method of depreciation,
capitalization thresholds, and useful lives.



      As of September 30, 2011
                                                   Acquisition         Accumulated        Net Book        Useful
                                                     Cost               Depreciation       Value            Life
      Equipment                                   $      8,918         $     (5,571)    $      3,347      5 years
      Assets Under Capital Lease                             27                  (21)              6      5 years
      Internal Use Software                            33,045               (23,879)           9,166      5 years
      Internal Use Software in Development                     7                    -              7       N/A
      Total                                       $    41,997          $    (29,471)    $     12,526




     U.S. Department of Justice
                            These notes are an integral part of these financial statements.
	


                                                       - 51 -
4.     General Property, Plant and Equipment, Net (continued)


      As of September 30, 2010
                                                    Acquisition     Accumulated           Net Book          Useful
                                                      Cost           Depreciation          Value              Life
      Equipment                                   $       7,546     $     (4,405)       $      3,141        5 years
      Assets Under Capital Lease                              27              (16)                11        5 years
      Internal Use Software                             27,527           (21,062)              6,465        5 years
      Internal Use Software in Development                2,415                   -            2,415         N/A
      Total                                       $     37,515      $    (25,483)       $     12,032




5.     Other Assets

Other Assets represent monies advanced to the United States Marshals Service (USMS), the Offices,
Boards, and Divisions (OBDs), the Bureau of Prisons (BOP), and other Federal agencies for inter-
agency agreements. The agreement with the USMS is to help build, expand or renovate correctional
facilities and jails for the confinement of violent offenders. The agreements with the OBDs are for
the administering of Community Oriented Policing Services grants. The agreements with the BOP
are for training and clearinghouse activities designed to reduce or eliminate incidents of prison rape.



      As of September 30, 2011 and 2010
                                                                                      2011                 2010
      Intragovernmental
          Advances and Prepayments                                              $     78,034           $   76,831




     U.S. Department of Justice
                            These notes are an integral part of these financial statements.
	


                                                       - 52 -
6. Liabilities not Covered by Budgetary Resources

Liabilities not Covered by Budgetary Resources are liabilities for which Congressional action is
needed before budgetary resources can be provided. These liabilities, as of September 30, 2011 and
2010, are presented in the table below.




    As of September 30, 2011 and 2010
                                                                          2011              2010
    Intragovernmental
      Accrued FECA Liabilities                                        $          86     $      129
      Other Unfunded Employment Related Liabilities                              33             27
        Total Intragovernmental                                                 119            156

    With the Public
     Actuarial FECA Liabilities                                                680              657
     Accrued Annual and Compensatory Leave Liabilities                       6,148            6,068
       Total With the Public                                                 6,828            6,725
       Total Liabilities not Covered by Budgetary Resources                  6,947            6,881
       Total Liabilities Covered by Budgetary Resources                    573,100          591,303
       Total Liabilities                                              $    580,047      $   598,184




  U.S. Department of Justice
                      These notes are an integral part of these financial statements.


                                                 - 53 -
7. Leases

Capital leases consist of leased equipment with various expiration dates. The capital lease term dates
do not exceed 2013. The leased equipment is being depreciated in accordance with the length of the
lease. Following is a summary of assets under capital lease and a schedule of minimum lease
payments.



    As of September 30, 2011 and 2010

    Capital Leases                                                          2011                2010

    Summary of Assets Under Capital Lease
     Machinery and Equipment                                           $             27     $           27
     Accumulated Amortization                                                       (21)               (16)
       Total Assets Under Capital Lease (Note 4)                      $               6     $           11




    Future Capital Lease Payments Due
                                                                       Machinery and
     Fiscal Year                                                         Equipment
       2012                                                                        15
       2013                                                                         1
        Total Future Capital Lease Payments                                        16
    Less: Imputed Interest                                                          1
    Less: Executory Costs                                                           1
      FY 2011 Net Capital Lease Liabilities                            $           14
      FY 2010 Net Capital Lease Liabilities                            $           18




                                                                            2011                2010
    Net Capital Lease Liabilities Covered by Budgetary Resources      $              14     $          18




  U.S. Department of Justice
                        These notes are an integral part of these financial statements.
	


                                                   - 54 -
7.    Leases (continued)
Noncancelable operating leases consist of leased equipment with various expiration dates, which do
not exceed 2015. Following is a schedule of minimum noncancelable operating lease payments that
reflects commitments for lease agreements with terms in excess of one year.


      Future Noncancelable Operating Lease Payments Due

                                                                            Machinery and
      Fiscal Year                                                            Equipment
        2012                                                               $            70
        2013                                                                            69
        2014                                                                            67
        2015                                                                            56
          Total Future Noncancelable Operating
             Lease Payments                                                $             262




8.     Other Liabilities
Typically, OJP enters into reimbursable agreements to award funds to various grant recipients on
behalf of other federal agencies. Once expenses are incurred by the grantees, the Advances from
Others account balance is reduced. In addition, Other Liabilities include both funded and unfunded
payroll costs. As of September 30, 2011 and 2010, all other liabilities are current and are presented
in the following table:



As of September 30, 2011 and 2010
                                                                               2011                2010
Intragovernmental
  Employer Contributions and Payroll Taxes Payable                     $           967         $       869
  Other Post-Employment Benefits Due and Payable                                    79                  41
  Other Unfunded Employment Related Liabilities                                     33                  28
  Advances from Others                                                         116,196             146,976
    Total Intragovernmental                                                    117,275             147,914
      Total Other Liabilities                                          $       117,275         $   147,914




     U.S. Department of Justice
                           These notes are an integral part of these financial statements.


                                                      - 55 -
9. Contingencies and Commitments

OJP is a party in various administrative proceedings, legal actions, and claims brought by or against
it. In the opinion of OJP’s management and legal counsel, the ultimate resolution of these
proceedings, actions, and claims, is remote and potential loss is immaterial.

10.   Earmarked Fund

In 1984, Congress enacted the Victims of Crime Act (VOCA), which authorized the establishment of
the CVF and its direct services programs and national-scope training and technical assistance efforts
on behalf of crime victims. In support of VOCA, OJP provides federal leadership for the rights and
needs of crime victims through policy development, funding promising practices, public awareness,
educational activities intended to promote justice for crime victims, and monitoring compliance with
federal victims’ rights statutes. Nonexchange revenue results from assessed criminal fines collected
by the U.S. Courts, the U.S. Army, and the DOJ Office of Debt Collection Management.

CVF receipts are available for obligation subject to Congressional limitation.




  U.S. Department of Justice
                       These notes are an integral part of these financial statements.
	


                                                  - 56 -
10.    Earmarked Fund (continued)

7KH IROORZLQJ WDEOH VKRZV WKH (DUPDUNHG )XQG DV RI DQG IRU WKH ILVFDO \HDUV HQGHG 6HSWHPEHU 
 DQG 


      $V RI 6HSWHPEHU   DQG                                                    
                                                                 &ULPH 9LFWLPV )XQG     &ULPH 9LFWLPV )XQG
      %DODQFH 6KHHW
       $VVHWV
          )XQG %DODQFH ZLWK 86 7UHDVXU\                                           
         2WKHU $VVHWV                                                                           
            7RWDO $VVHWV                                                            

       /LDELOLWLHV
          $FFRXQWV 3D\DEOH                                                                 
         2WKHU /LDELOLWLHV                                                                  
           7RWDO /LDELOLWLHV                                                              

       1 HW 3RVLWLRQ
         &XPXODWLYH 5HVXOWV RI 2SHUDWLRQV                                           
            7RWDO 1HW 3RVLWLRQ                                                      
            7RWDO /LDELOLWLHV DQG 1HW 3RVLWLRQ                                      


      )RU WKH )LVFDO <HDUV (QGHG 6HSWHPEHU   DQG 

       6WDWHPHQW RI 1HW &RVW
           *URVV &RVW RI 2SHUDWLRQV                                                     
           /HVV ([FKDQJH 5HYHQXHV                                                                    
             1HW &RVW RI 2SHUDWLRQV                                                     

       6WDWHPHQW RI &KDQJHV LQ 1HW 3RVLWLRQ
          1HW 3RVLWLRQ %HJLQQLQJ RI 3HULRG                                          

          %XGJHWDU\ )LQDQFLQJ 6RXUFHV                                                 

          1HW &RVW RI 2SHUDWLRQV                                                       
          1HW &KDQJH                                                                  
          1HW 3RVLWLRQ (QG RI 3HULRG                                                



  U.S. Department of Justice
                            7KHVH QRWHV DUH DQ LQWHJUDO SDUW RI WKHVH ILQDQFLDO VWDWHPHQWV



                                                       - 57 -
11.     Net Cost of Operations by Suborganization

The following tables show the Net Cost of Operations for each of the DOJ’s goals by
suborganization, for the fiscal years ended September 30, 2011 and 2010, respectively. The
suborganizations are Justice Assistance (JA), State and Local Law Enforcement Assistance
(SLLEA), Juvenile Justice (JJ) and the Crime Victims Fund (CVF).


      For the Fiscal Year Ended September 30, 2011

                                                                                       Suborganizations
                                                          JA               SLLEA             JJ           CVF         OTHER         Consolidated

       Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People

           Gross Cost                                $    82,327         $ 1,907,769     $ 351,770 $            - $     338,769 $       2,680,635
           Less: Earned Revenue                            2,774              19,345           954              -         9,249            32,322
           Net Cost of Operations                         79,553           1,888,424       350,816              -       329,520         2,648,313

       Goal 3: Ensure the Fair and Efficient Administration of Justice

           Gross Cost                                    126,026            265,596               85      662,569             -         1,054,276
           Less: Earned Revenue                            3,246              7,225              (31)           -             -            10,440
           Net Cost of Operations                        122,780            258,371              116      662,569             -         1,043,836

       Net Cost of Operations                        $ 202,333           $ 2,146,795     $ 350,932 $ 662,569 $          329,520 $       3,692,149




      For the Fiscal Year Ended September 30, 2010

                                                                                       Suborganizations
                                                          JA               SLLEA             JJ           CVF         OTHER         Consolidated

       Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People

           Gross Cost                                $    75,453         $ 2,068,834     $ 280,922 $            - $     332,762 $       2,757,971
           Less: Earned Revenue                            8,143              35,372           512              -         5,824            49,851
           Net Cost of Operations                         67,310           2,033,462       280,410              -       326,938         2,708,120

       Goal 3: Ensure the Fair and Efficient Administration of Justice

           Gross Cost                                    114,956            263,863              688      608,723             -           988,230
           Less: Earned Revenue                            7,680             18,576               (4)           -             -            26,252
           Net Cost of Operations                        107,276            245,287              692      608,723             -           961,978

       Net Cost of Operations                        $ 174,586           $ 2,278,749     $ 281,102 $ 608,723 $          326,938 $       3,670,098




  U.S. Department of Justice
                                    These notes are an integral part of these financial statements.
	


                                                                            - 58 -
12. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e., non-reimbursed and
under-reimbursed) portion of the full costs of goods and services received by OJP from a providing
entity that is not part of the U.S. Department of Justice. In accordance with SFFAS No. 30, Inter-
Entity Cost Implementation Amending SFFAS No. 4, Managerial Cost Accounting Standards and
Concepts, the material Imputed Inter-Departmental financing sources recognized by OJP are the cost
of benefits for the Federal Employees Health Benefits Program (FEHB), the Federal Employees’
Group Life Insurance Program (FEGLI), and the Federal Pension plans that are paid by other federal
entities.

SFFAS No. 5, Accounting for Liabilities of the Federal Government, requires that employing
agencies recognize the cost of pensions and other retirement benefits during their employees’ active
years of service. SFFAS No. 5 requires OPM to provide cost factors necessary to calculate cost.
OPM actuaries calculate the value of pension benefits expected to be paid in the future, and then
determine the total funds to be contributed by and for covered employees, such that the amount
calculated would be sufficient to fund the projected pension benefits. For employees covered by
CSRS, the cost factors are 30.1 percent of basic pay for regular, and 23.5 percent for regular offset.
For employees covered by FERS, the cost factors are 13.8 percent of basic pay for regular.

The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, other retirement benefits, which include health and life insurance that are
paid by other federal entities, must also be recorded.

There are no material imputed intra-departmental financing sources.



     For the Fiscal Years Ended September 30, 2011 and 2010
                                                                      2011                     2010

     Imputed Inter-Departmental Financing
          Health Insurance                                       $        3,300            $     3,210
          Life Insurance                                                     14                     14
          Pension                                                         1,951                  1,488
              Total Imputed Inter-Departmental                    $       5,265            $     4,712




  U.S. Department of Justice
                       These notes are an integral part of these financial statements.
	


                                                  - 59 -
13.   Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

The apportionment categories are determined in accordance with the guidance provided in Part 4 of
OMB Circular A-11, Preparation, Submission, and Execution of the Budget. Category A represents
resources apportioned for calendar quarters. Category B represents resources apportioned for the
other time periods; for activities, projects, and objectives or for a combination thereof.


                                                                                                       Total
                                                                Direct              Reimbursable    Obligations
                                                               Obligations           Obligations     Incurred

      For the Fiscal Year Ended September 30, 2011
       Obligations Apportioned Under
         Category A                                        $      2,656,815         $    23,840    $ 2,680,655
         Category B                                                 191,296               8,293        199,589
       Total                                               $      2,848,111         $    32,133    $ 2,880,244

      For the Fiscal Year Ended September 30, 2010
       Obligations Apportioned Under
         Category A                                        $      3,267,467        $     27,320    $ 3,294,787
         Category B                                                 166,682                 311        166,993
       Total                                               $      3,434,149        $     27,631    $ 3,461,780



Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not
been actually or constructively received. This amount includes any orders which may have been
prepaid or advanced but for which delivery or performance has not yet occurred.


      As of September 30, 2011 and 2010
                                                                        2011                       2010

        UDO Obligations Unpaid                                   $           4,569,152        $    5,066,722
        UDO Obligations Prepaid/Advanced                                     1,087,842             1,504,938
         Total UDO                                               $           5,656,994        $    6,571,660




  U.S. Department of Justice
                           These notes are an integral part of these financial statements.
	


                                                      - 60 -
13.    Information Related to the Statement of Budgetary Resources (continued)

Permanent Indefinite Appropriations:

The Public Safety Officers’ Benefits Act of 1976 is generally codified at 42 U.S.C. Chapter 46,
SUBCHAPTER XII.

The PSOB appropriation supports one mandatory and two discretionary programs that provide
benefits to public safety officers who are severely injured in the line of duty and to the families and
survivors of public safety officers killed or mortally injured in the line of duty.

The PSOB Program offers three types of benefits:

      1.		 Death Benefits, a one-time financial benefit to survivors of public safety officers whose
           deaths resulted from injuries sustained in the line of duty. Under the Hometown Heroes
           Survivors Benefit Act of 2003, survivors of public safety officers who die of a heart attack or
           stroke within 24 hours of stressful, non-routine public safety activities may also qualify for
           death benefits.

      2.		 Disability Benefits, a one-time financial benefit to public safety officers permanently
	
           disabled by catastrophic injuries sustained in the line of duty.
	

      3.		 Education Benefits, which provide financial support for higher education expenses (such as
           tuition and fees, books, supplies, and room and board) to the eligible spouses and children of
           public safety officers killed or permanently disabled in the line of duty.

Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated and
that remains available for obligation under law, unless otherwise restricted. The use of unobligated
balances is restricted based on annual legislation requirements and other enabling authorities. Funds
are appropriated on an annual, multi-year, and no-year basis. Appropriated funds, except no-year,
shall expire on the last day of availability and are no longer available for new obligations.
Unobligated balances in unexpired fund symbols are available in the next fiscal year. Amounts in
expired fund symbols are not available for new obligations, but may be used to adjust previously
established obligations.

In FYs 2010 and 2011, the budget authority for the CVF has been limited to $705 million in new
authority, and $50 million in carry forward authority from prior fiscal years.




  U.S. Department of Justice
                         These notes are an integral part of these financial statements.
	


                                                    - 61 -
13.   Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs. the Budget of the United States Government:

The reconciliation as of September 30, 2011, is not presented, because the submission of the Budget
of the United States Government (Budget) for FY 2013, which presents the execution of the FY 2011
Budget, occurs after publication of these financial statements. The Department of Justice Budget
Appendix can be found on the OMB website (http://whitehouse.gov/omb/budget) and will be
available in early February 2012.
The reconciliation of the Statement of Budgetary Resources versus the Budget of the United States
Government, as of September 30, 2010, is presented below:



   For the Fiscal Year Ended September 30, 2010                                                       Distributed
    ( Dollars in Millions)                                       Budgetary        Obligations         Offsetting           Net
                                                                 Resources         Incurred            Receipts           Outlays
   Statement of Budgetary Resources (SBR)                      $        3,694    $        3,462   $                 -   $      3,798

   Funds not Reported in the Budget:
     Expired Funds                                                        (14)               -                      -              -
     Rounding                                                               1               (2)                     -              -

   Budget of the United States Government                      $        3,681    $       3,460    $                 -   $      3,798




  U.S. Department of Justice
                                 These notes are an integral part of these financial statements.
	


                                                            - 62 -
14. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
    Statement of Financing)


For the Fiscal Years Ended September 30, 2011 and 2010

                                                                                     2011                 2010
Resources Used To Finance Activities

   Budgetary Resources Obligated
       Obligations Incurred                                                    $       2,880,244      $    3,461,780
       Less: Spending Authority from Offsetting Collections and
           Recoveries                                                                     87,405             113,773
       Obligations Net of Offsetting Collections and Recoveries                        2,792,839           3,348,007
       Less: Offsetting Receipts                                                             206                 242
       Net Obligations                                                                 2,792,633           3,347,765

    Other Resources
        Transfers In/Out Without Reimbursement                                            10,600              24,608
        Imputed Financing from Costs Absorbed by Others (Note 12)                          5,265               4,712
        Net Other Resources Used to Finance Activities                                    15,865              29,320
 Total Resources Used to Finance Activities                                            2,808,498           3,377,085

 Resources Used to Finance Items not Part of the Net Cost
   of Operations
        Net Change in Budgetary Resources Obligated for Goods, Services,
           a nd Benefits Ordered but not Yet Provided                                    883,368             309,903
         Resources That Fund Expenses Recognized in Prior Periods (Note 15)                  (43)                 (7)
         Budgetary Offsetting Collections and Receipts That do not
           A ffect Net Cost of Operations                                                      507                  932
        Resources That Finance the Acquisition of Assets                                    (4,768)              (4,141)
        Other Resources or Adjustments to Net Obligated Resources
          T hat do not Affect Net Cost of Operations                                        3,871            (20,852)
 Total Resources Used to Finance Items not Part of the Net Cost
   of Operations                                                                         882,935             285,835

 Total Resources Used to Finance the Net Cost of Operations                    $       3,691,433      $    3,662,920




  U.S. Department of Justice
                           These notes are an integral part of these financial statements.
	


                                                         - 63 -
14. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
    Statement of Financing) (continued)



For the Fiscal Years Ended September 30, 2011 and 2010

                                                                                     2011                 2010

 Components of Net Cost of Operations That Will not Require
   or Generate Resources in the Current Period
   Components That Will Require or Generate Resources
        in Future Periods (Note 15)                                            $              109     $           622

     Depreciation and Amortization                                                           4,318               5,400
     Revaluation of Assets or Liabilities                                                      (45)                 13
     Other                                                                                  (3,666)              1,143
 Total Components of Net Cost of Operations That Will not Require or
    Generate Resources in the Current Period                                                  716                7,178

 Net Cost of Operations                                                         $      3,692,149      $    3,670,098




  U.S. Department of Justice
                            These notes are an integral part of these financial statements.
	


                                                          - 64 -
15. Explanation of Differences Between Liabilities not Covered by Budgetary Resources and
    Components of Net Cost of Operations Requiring or Generating Resources in Future
    Periods

Liabilities that are not covered by realized budgetary resources and for which there is no certainty
that budgetary authority will be realized, such as the enactment of an appropriation, are considered
liabilities not covered by budgetary resources. These liabilities totaling $6,947 on September 30,
2011 and $6,881 on September 30, 2010, are discussed in Note 6, Liabilities not Covered by
Budgetary Resources. Decreases in these liabilities result from current year budgetary resources that
were used to fund expenses recognized in prior periods. Increases in these liabilities represent
unfunded expenses that were recognized in the current period. These increases along with the
change in the portion of exchange revenue receivables from the public, which are not considered
budgetary resources until collected, represent components of current period net cost of operations
that will require or generate budgetary resources in future periods. The changes in liabilities not
covered by budgetary resources and receivables generating resources in future periods are comprised
of the following:



For the Fiscal Years Ended September 30, 2011 and 2010
                                                                                       2011              2010
Resources that Fund Expenses Recognized in Prior Periods
 Other
   Decrease in Accrued FECA Liabilities                                            $          (43)   $          (7)
     Total Other                                                                              (43)              (7)
     Total Resources that Fund Expenses Recognized in Prior Periods                $          (43)   $          (7)



Components of Net Cost of Operations will Require or Generate Resources in Future Periods
  Increase in Accrued Annual and Compensatory Leave Liabilities                    $          80     $      443

   Other
      Increase in Actuarial FECA Liabilities                                                  23            163
      Increase in Other Unfunded Employment Related Liabilities                                6             16
         Total Other                                                                          29            179
         Total Components of Net Cost of Operations That Will Require or
            Generate Resources in Future Periods                                  $         109            6




  U.S. Department of Justice
                           These notes are an integral part of these financial statements.
	


                                                        - 65 -
16. Allocation Transfers of Appropriations

OJP, as the parent, is required to transfer seventeen million dollars from the CVF to the U.S.
Department of Health and Human Services (HHS) in FY 2011. This transfer is required by 42 U.S.C
'10603a {Sec. 14-4A} for Child abuse prevention and treatment grants. Amounts made available
by section '10601(d)(2) of this title, for the purposes of this section, are to be obligated and
expended by the Secretary of HHS for grants under section '5106c of this title. The allocation
transfer is reported in OJP’s financial statements.


17. Change in Accounting Principle

Based upon guidance received from OMB regarding their interpretation of P.L. 112-10, Section
1101, OJP has changed its method of accounting for previous years’ unobligated CVF collections,
which as of October 1, 2010, totaled $4,801,473. As a result of this change in accounting principle,
which OJP is applying prospectively beginning with FY 2011 (subject to the annual appropriation
language for the CVF fund), the cumulative amount of unobligated CVF collections from prior years
is included in the ‘Appropriations Received’ and ‘Temporarily Not Available Pursuant to Public
Law’ line items of the Combined Statements of Budgetary Resources.




  U.S. Department of Justice
                      These notes are an integral part of these financial statements.
	


                                                 - 66 -
Required Supplementary Information
	

            Unaudited
	




            - 67 -
                                                                U.S. Department of Justice

                                                                Office of Justice Programs

                                                              Required Supplementary Information

                                                          Combining Statement of Budgetary Resources

                                                          For the Fiscal Year Ended September 30, 2011





Dollars in Thousands                                                                                                                                          2011

                                                                       JA             SLLEA            JJ              CVF              OTHER           TOTAL

Budgetary Resources

  Unobligated Balance, Brought Forward, October 1                  $    32,924    $    115,214     $    12,581    $      50,441     $     21,340    $     232,500

  Recoveries of Prior Year Unpaid Obligations                            8,188          25,617           7,153            8,230            4,968           54,156

  Budget Authority
     Appropriations Received                                           235,000        1,120,085        275,975        6,799,694          262,100        8,692,854
     Spending Authority from Offsetting Collections
         Earned
             Collected                                                  10,242          38,396           2,106            1,249           10,056           62,049
             Change in Receivables from Federal Sources                   (547)           (766)            221                -            1,179               87
         Change in Unfilled Customer Orders
             Advance Received                                           (6,123)         (20,634)        (1,362)               -             (251)         (28,370)
             Without Advance from federal Sources                          622           (2,662)         3,728                -           (2,205)            (517)
  Subtotal Budget Authority                                            239,194        1,134,419        280,668        6,800,943          270,879        8,726,103

  Nonexpenditure Transfers, Net, Anticipated and Actual                 (6,860)        139,917          13,945                 -          53,342          200,344

  Temporary not Available Pursuant to Public Law                             -                -              -        (6,099,743)               -       (6,099,743)

  Permanently not Available                                             (7,734)         (28,057)        (6,875)                -          (2,988)         (45,654)

Total Budgetary Resources                                          $   265,712    $ 1,387,110      $   307,472    $     759,871     $    347,541    $ 3,067,706




  U.S. Department of Justice



                                                                   - 68 -
                                                                               U.S. Department of Justice

                                                                               Office of Justice Programs

                                                                Required Supplementary Information

                                                        Combining Statement of Budgetary Resources (continued)

                                                            For the Fiscal Year Ended September 30, 2011





Dollars in Thousands                                                                                                                                            2011

Status of Budgetary Resources                                                       JA           SLLEA           JJ             CVF           OTHER       TOTAL

   Obligations incurred
     Direct                                                                     $   244,494    $ 1,286,435   $   295,369    $   709,205   $    312,608   $ 2,848,111
     Reimbursable                                                                     1,306         14,929         5,234            225         10,439        32,133
        Total Obligations Incurred                                                  245,800      1,301,364       300,603        709,430        323,047     2,880,244
   Unobligated Balance - Available
     Apportioned                                                                     19,912         84,931         6,843         45,570         11,811       169,067
   Unobligated Balance not Available                                                      -            816            26          4,871         12,682        18,395

Total Status of Budgetary Resources                                             $   265,712    $ 1,387,111   $   307,472    $   759,871   $    347,540   $ 3,067,706



Change in Obligated Balance

   Obligated Balance, Net - Brought Forward, October 1
         Unpaid Obligations                                                     $   311,321    $ 3,283,075   $   714,626    $ 1,086,783   $    115,042   $ 5,510,847
         Less: Uncollected Customer Payment from Federal Sources                     13,773          7,397         1,417              -          3,079        25,666
             Total Unpaid Obligated Balance, Net, Brought Forward, October 1        297,548      3,275,678       713,209      1,086,783        111,963     5,485,181
   Obligations Incurred, Net                                                        245,800      1,301,364       300,603        709,430        323,047     2,880,244
   Less: Gross Outlays                                                              213,610      1,781,869       333,445        677,983        304,161     3,311,068
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                          8,188         25,617         7,153          8,230          4,968        54,156
   Change in Uncollected Customer Payments from Federal Sources                         (75)         3,428        (3,949)             -          1,026           430

   Obligated Balance, Net - End of Period
       Unpaid Obligations                                                           335,323      2,776,953       674,631      1,110,000        128,960     5,025,867
       Less: Uncollected Customer Payments from Federal Sources                      13,848          3,969         5,366              -          2,053        25,236
           Total Unpaid Obligated Balance, Net - End of Period                  $   321,475    $ 2,772,984   $   669,265    $ 1,110,000   $    126,907   $ 5,000,631

Net Outlays
   Gross Outlays                                                                $   213,610    $ 1,781,869   $   333,445    $   677,983   $    304,161   $ 3,311,068
   Less: Offsetting Collections                                                       4,120         17,765           745          1,249          9,804        33,683
   Less: Distributed Offsetting Receipts                                                  -              -             -              -            206           206
Total Net Outlays                                                               $   209,490    $ 1,764,104   $   332,700    $   676,734   $    294,151   $ 3,277,179




   U.S. Department of Justice



                                                                                 - 69 -
                                                                  U.S. Department of Justice

                                                                  Office of Justice Programs

                                                                Required Supplementary Information

                                                            Combining Statement of Budgetary Resources

                                                            For the Fiscal Year Ended September 30, 2010





Dollars in Thousands                                                                                                                                           2010

                                                                       JA             SLLEA             JJ              CVF              OTHER           TOTAL


Budgetary Resources

   Unobligated Balance, Brought Forward, October 1                 $    23,626    $     120,569     $     9,706    $      50,441     $     19,948    $     224,290

   Recoveries of Prior Year Unpaid Obligations                          15,903           32,947           8,865            3,402            5,108           66,225

   Budget Authority
     Appropriations Received                                           235,000         1,534,768        423,595        2,362,338          308,488        4,864,189
     Spending Authority from Offsetting Collections
          Earned
             Collected                                                  20,010           97,030              841              155          11,346          129,382
             Change in Receivables from Federal Sources                   (968)              80               57                -          (2,658)          (3,489)

           Change in Unfilled Customer Orders
              Advance Received                                         (11,533)          (73,432)         1,098                 -             777          (83,090)
              Without Advance from Federal Sources                      (2,575)            5,004            557                 -           1,759            4,745

   Subtotal Budget Authority                                           239,934         1,563,450        426,148        2,362,493          319,712        4,911,737

   Nonexpenditure Transfers, Net, Anticipated, and Actual               (4,858)         180,695          (5,122)                -          29,738          200,453

   Temporary not Available Pursant to Public Law                             -                 -               -       (1,654,425)               -       (1,654,425)

   Permanently not Available                                            (3,263)          (42,276)        (8,008)                -            (453)         (54,000)

Total Budgetary Resources                                          $   271,342    $    1,855,385    $   431,589    $     761,911     $    374,053    $   3,694,280




   U.S. Department of Justice



                                                                       - 70 -
                                                                               U.S. Department of Justice

                                                                               Office of Justice Programs

                                                                 Required Supplementary Information

                                                         Combining Statement of Budgetary Resources (continued)

                                                             For the Fiscal Year Ended September 30, 2010





Dollars in Thousands                                                                                                                                                2010



                                                                                   JA            SLLEA             JJ             CVF           OTHER          TOTAL


Status of Budgetary Resources

   Obligations incurred
     Direct                                                                    $   232,471   $    1,731,422    $   416,664    $   711,470   $    342,122   $   3,434,149
     Reimbursable                                                                    5,947            8,749          2,344              -         10,591          27,631
        Total Obligations Incurred                                                 238,418        1,740,171        419,008        711,470        352,713       3,461,780
   Unobligated Balance - Available
     Apportioned                                                                    29,977         115,214          12,581         43,491          7,709        208,972
   Unobligated Balance not Available                                                 2,947               -               -          6,950         13,631         23,528

Total Status of Budgetary Resources                                            $   271,342   $    1,855,385    $   431,589    $   761,911   $    374,053   $   3,694,280


Change in Obligated Balance

   Obligated Balance, Net - Brought Forward, October 1
         Unpaid Obligations                                                    $   308,225   $    3,923,066    $   617,523    $ 1,006,052   $    105,081   $   5,959,947
         Less: Uncollected Customer Payment from Federal Sources                    17,317            2,314            803              -          3,976          24,410
             Total Unpaid Obligated Balance, Net, Brought Forward, October 1       290,908        3,920,752        616,720      1,006,052        101,105       5,935,537
   Obligations Incurred, Net                                                       238,418        1,740,171        419,008        711,470        352,713       3,461,780
   Less: Gross Outlays                                                             219,418        2,347,216        313,041        627,337        337,643       3,844,655
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                        15,903           32,947          8,865          3,402          5,108          66,225
   Change in Uncollected Customer Payments from Federal Sources                      3,543           (5,084)          (614)             -            899          (1,256)

   Obligated Balance, Net - End of Period
       Unpaid Obligations                                                          311,322        3,283,074        714,625      1,086,783        115,043       5,510,847
       Less: Uncollected Customer Payments from Federal Sources                     13,774            7,398          1,417              -          3,077          25,666
           Total Unpaid Obligated Balance, Net - End of Period                 $   297,548   $    3,275,676    $   713,208    $ 1,086,783   $    111,966   $   5,485,181

Net Outlays
   Gross Outlays                                                               $   219,418   $    2,347,216    $   313,041    $   627,337   $    337,643   $ 3,844,655
   Less: Offsetting Collections                                                      8,477           23,598          1,940            155         12,122        46,292
   Less: Distributed Offsetting Receipts                                                 -                -              -              -            242           242
Total Net Outlays                                                              $   210,941   $    2,323,618    $   311,101    $   627,182   $    325,279   $ 3,798,121




   U.S. Department of Justice



                                                                                   - 71 -
This page intentionally left blank. 





                - 72 -
Required Supplementary Stewardship Information


                   Unaudited





                  - 73 -
This page intentionally left blank. 





                - 74 -
                                                  U.S. Department of Justice

                                                  Office of Justice Programs

                                       Required Supplementary Stewardship Information

                                                 Non-Federal Physical Property

                                      For the Fiscal Years 2011, 2010, 2009, 2008, and 2007





The Violent Offender Incarceration and Truth-In-Sentencing (VOI/TIS) Incentive and Correctional
Systems and Correctional Alternatives for Tribal Lands (CSCATL) grant programs, which are
administered by the Office of Justice Programs’ Bureau of Justice Assistance, provide grants to any
of the 50 United States, the District of Columbia, Tribes, Puerto Rico, Virgin Islands, American
Samoa, Guam, and the Northern Mariana Islands, for the purposes of building or expanding
correctional facilities and jails to increase secure confinement space for violent offenders. The
CSCATL grant program has been expanded in scope to include multi-purpose justice centers as the
result of the recently enacted Tribal Law and Order Act of 2010 (Public Law 111-211). The
facilities built or expanded with these funds constitute non-federal physical property.

VOI/TIS and CSCATL funds are available for the following purposes:
•	 Build or expand correctional facilities to increase the bed capacity for the confinement of
   persons convicted of a Part 1 violent crime or adjudicated delinquent for an act that, if
   committed by an adult, would be a Part 1 violent crime. NOTE: Part 1 violent crime includes
   murder and non-negligent manslaughter, forcible rape, robbery, and aggravated assault as
   reported to the Federal Bureau of Investigation for purposes of the Uniform Crime Reports.
•	 Build or expand temporary or permanent correctional facilities, including facilities on military
   bases, prison barges, and boot camps, for the confinement of convicted nonviolent offenders and
   criminal aliens, for the purpose of freeing suitable existing prison space for the confinement of
   persons convicted of a Part 1 violent crime.
•	 Build or expand jails.
•	 Additionally, since fiscal year (FY) 1999, up to 10.0 percent of a state's VOI/TIS award may be
   applied to the costs of offender drug testing or intervention programs during periods of
   incarceration and post-incarceration criminal justice supervision and/or pay the costs of
   providing the required reports on prison drug use.

VOI/TIS and CSCATL funds expended from FYs 2007 through September 30, 2011, are as follows:

Dollars in Thousands                             2011           2010           2009            2008          2007

Recipients of Non-Federal Physical Property:
   Cooperative Agreement Program
     Administered by US Marshals Service $             -    $         -   $          -    $      1,140   $   2,839
   Grants to Indian Tribes                        52,339         24,768         14,320           5,094      11,334
   Grants to States                               (1,139)        11,389         41,561          59,011     188,171
     Total Non-Federal Physical Property     $    51,200    $    36,157    $    55,881    $     65,245   $ 202,344




   U.S. Department of Justice

                                                            - 75 -
